<html>
<title> - VISA SECURITY AND PASSENGER PRE-SCREENING EFFORTS IN THE WAKE OF FLIGHT 253</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                VISA SECURITY AND PASSENGER PRE-SCREENING 
                  EFFORTS IN THE WAKE OF FLIGHT 253
=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2010

                               __________

                           Serial No. 111-55

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 




      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               __________




                        U.S. GOVERNMENT PRINTING OFFICE
58-301 PDF                    WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>  














                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                    Henry Cuellar, Texas, Chairwoman
Loretta Sanchez, California          Mark E. Souder, Indiana
Jane Harman, California              Michael T. McCaul, Texas
Zoe Lofgren, California              Gus M. Bilirakis, Florida
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Al Green, Texas                          Officio)
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                    Alison Northrop, Staff Director
                          Nikki Hadder, Clerk
                Mandy Bowers, Minority Subcommittee Lead
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairwoman, Subcommittee on Border, 
  Maritime, and Global Counterterrorism..........................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism:
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     3

                               Witnesses

Mr. Raymond R. Parmer, Jr., Director, Office of International 
  Affairs, U.S. Immigration and Customs Enforcement, Department 
  of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. Thomas S. Winkowski, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. David T. Donahue, Deputy Assistant Secretary for Visa 
  Services, Bureau of Consular Affairs, U.S. Department of State:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19


VISA SECURITY AND PASSENGER PRE-SCREENING EFFORTS IN THE WAKE OF FLIGHT 
                                  253

                              ----------                              

                        Thursday, March 11, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:32 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Thompson, Pascrell, and 
Souder.
    Mr. Cuellar [presiding]. The subcommittee will come to 
order. The Subcommittee on Border, Maritime, and Global 
Terrorism--Counterterrorism is meeting today to receive 
testimony on visa security, passenger pre-screening efforts in 
the wake of Flight 253.
    Today the subcommittee is meeting to examine the visa 
security and passenger pre-screening efforts in the wake of the 
Flight 253 incidence--you know, happened around Christmas day 
of last year.
    It is my hope that we build--we will be using this hearing 
to build on the hearing that the Chairman of the full committee 
had in January. We will be taking his foundation and work from 
there.
    Mr. Chairman, we want to thank you, of course, for that.
    Now that we have an understanding of the failures that left 
us vulnerable to attack, the subcommittee is examining as to 
what steps DHS, the State Department and the Federal and 
international partners are taking to address those 
vulnerabilities.
    Along with other Members of this committee I recently had 
the opportunity to view some of those efforts first-hand. Last 
week I visited--we visited the Customs Border Protection 
National Targeting Center and was briefed by immigration and 
customs enforcement about the Visa Security Program.
    I am encouraged by much of what has happened since that 
and, of course, what we have learned. Security in our skies 
starts with what we do on the ground.
    I am glad that CBP is doing more than just screening 
passengers prior to departure for the United States, even 
though they have a limited number of physical presence at a 
number of the airports. They are making the most of existing 
technology and utilizing relationships with regional carrier 
liaisons, which makes good sense.
    We must not forget that our airports are also the border 
ports of entry. That is why ICE is deploying additional units 
under its Visa Security Program, or VSP, as it is known, to 
strategic, high-risk visa issuing posts around the world.
    However, more remains to be done. We need to look how CBP 
can further improve its pre-screening process to target those 
who seek to do us harm, without unduly delaying the legitimate 
travel. That balance is so important between security and, of 
course, commerce.
    We also must explore whether we are making the most of the 
ICE Visa Security Program, and if it should be deployed to 
additional high-risk embassies and consulates.
    Furthermore, we should examine how the State Department and 
the Department of Homeland can improve their coordination and 
their cooperation. The coordination, the cooperation, and 
communication is what we call the Three C's.
    I have always advocated that as Government agencies, we 
should share more information. The more we can do together, the 
better it is for the people that we serve, our customers, our 
taxpayers, the people of America.
    I know that ICE Assistant Secretary John Morton has been 
visiting our embassies to conduct outreach and discuss the 
program.
    However, I do have to say that I was troubled that the 
State Department's recent denial of the VSP application for a 
post in the Middle East. My understanding that there is a sign 
of commitment to the interagency cooperation post-Flight 253, 
and clearly we have a ways to go on this.
    But I was pleased to hear that since that, the State 
Department has reversed its decision, and hopefully that will 
set the tone for the future, and the cooperation between ICE 
and Homeland and the State Department is so important for us as 
the committee.
    Of course, ICE and CBP are only part of the equation. Many 
of the problems that contributed to the Christmas day incident 
were intelligence and information-sharing failures. As 
Secretary Napolitano has stated, DHS is largely a consumer of 
the watch list.
    We need to make sure we get ICE and CBP, as our frontline 
officers and agents at the--at America's land, sea, and 
airports the information they need so they can do their job in 
a proper way. Pre-screening passengers is one of our last lines 
of defense in securing our skies.
    Also, Mr. Chairman, as you know, I want to thank you. This 
is my first hearing as Chairman of this subcommittee, and I 
certainly want to say thank you very much for that opportunity, 
Mr. Chairman.
    Of course I will look forward to working with my Ranking 
Member, Mr. Souder, who has been very interested and very 
cooperative as we work in a bipartisan way.
    Certainly, we want to do everything we can to address the 
border and maritime security matters that come before this 
subcommittee.
    My approach as Chairman is going to be very simple. We want 
to work together. It is not us versus you. We are all on the 
same team. You might be the Executive branch. We might be the 
Legislative branch. But we should work together. There will be 
no surprises.
    We are hoping, Mr. Chairman, that we get no surprises from 
our agencies also. If there is a problem, we would like to know 
before we read about it in the newspaper, as it happened in the 
past. I think it is a very simple request that we are making.
    I think if we do that, Mr. Chairman, I think we can have a 
dialogue that will be for the betterment of the folks that we 
serve.
    So I want to thank the witnesses for joining us here and 
for the courageous work that you all do every day and for 
keeping us safe. We want to say thank you. I look forward to 
your testimony and continuing our dialogue about how we can 
work together to make our Nation more secure.
    I know our Ranking Member is not here. I know there are--
they have a big meeting. But certainly, I would like to 
recognize the Chairman of the full committee, the gentleman 
from Mississippi, Mr. Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. I 
associate myself with your earlier statement.
    Logistically, they have just called six votes. That is the 
bad news. The good news--those are the only votes for the day, 
so hopefully we can, Mr. Chairman, adjourn and come right back. 
We can beg the indulgence of our witnesses.
    You have made your statement quite clear. Cooperation and 
coordination is absolutely important in this process. The 
public expects no less. The assumption is that the right hand 
really ought to know what the left hand is doing.
    In the spirit of cooperation and coordination, Congress has 
put the necessary tools in place with the professional help to 
make that happen. The missteps in Jerusalem you just talked 
about is unfortunate. Hopefully it won't happen again.
    We have been assured, I think, at the staff level that that 
has been corrected and hopefully the State Department will work 
a little closer with us in the future.
    I will, in the interest of time, Mr. Chair, include my 
formal statement for the record, and I will yield back.
    Mr. Cuellar. Without objection. Thank you, Mr. Chairman.
    [The statement of Mr. Thompson follows:]
           Prepared Statement of Chairman Bennie G. Thompson
                             March 11, 2010
    In January, the Committee on Homeland Security held a hearing to 
examine the circumstances surrounding the attempted bombing of 
Northwest Flight 253 on Christmas day.
    From our examination of the chain of events leading up to the 
incident, it is clear there were several failures that allowed the 
alleged perpetrator to board the U.S.-bound flight.
    I am pleased that today's hearing will build on what we have 
learned by focusing on what we are doing, both now and over the long 
term, to eliminate the security gaps revealed by Flight 253.
    As I stated earlier this year, we will not eradicate all terrorist 
threats overnight nor with a single technology.
    Instead, we must develop a layered security approach that pushes 
borders out and begins far in advance of a passenger boarding a U.S.-
bound flight.
    With respect to the Department of Homeland Security, that will 
require a number of initiatives, including enhancing ICE's Visa 
Security Program (or ``VSP'') and strengthening CBP's passenger pre-
screening activities.
    In the aftermath of the September 11 attacks, Congress recognized 
the importance of securing the visa process and required it to be used 
as a counterterrorism tool.
    Mandating the Visa Security Program was one of these efforts.
    By deploying experienced ICE agents at overseas posts, the program 
attempts to identify potential threats before they reach our borders.
    Despite the legislative mandate to deploy Visa Security Units to 
high-risk posts, VSP expansion has been slow.
    The current process can be cumbersome, and there appears to be some 
resistance to expanding the program.
    I was troubled by the State Department's denial last month of ICE's 
application for a new VSP unit at a very strategic post--even in the 
wake of Flight 253.
    At the same time, it is DHS' responsibility to ensure that 
applications are submitted in a timely way and that it makes the most 
of the positions granted.
    In short, improved coordination and cooperation between DHS and the 
State Department are essential to the success of the program.
    With respect to passenger pre-screening efforts, CBP has recently 
strengthened some of their processes to ensure greater scrutiny of 
certain passengers prior to departure, rather than waiting until they 
arrive at U.S. airports.
    I want to hear more about those enhancements and what else we can 
do without unduly delaying legitimate travelers.
    Those who would do us harm do not stick to the status quo, and we 
cannot either.
    In closing, I would like to congratulate Representative Cuellar on 
his chairmanship. I look forward to continued good work from this 
subcommittee under his leadership.
    I thank the witnesses for being here today.

    Mr. Cuellar. I guess at this time what we are going to do 
is we are going to excuse ourselves so we can go vote.
    How much time do we actually have? About 10 minutes. Well, 
why don't we at least get the preliminary work out of the way? 
Let me do the introductions, so when we come back we can go 
ahead and get started.
    So, Mr. Chairman, if you would allow me, first--our first 
witness, so we can do the introductions--our first witness is 
Mr. Raymond Parmer, Jr., who is the director of ICE Office of 
International Affairs, the largest international component 
within the Department of Homeland Security.
    He has served in a variety of key ICE management positions, 
including as the deputy director of ICE Office of 
Investigations--again, the largest investigative arm of DHS.
    With over 20 years of law enforcement experience, Mr. 
Parmer has served as the special agent in supervisory--special 
agent in a number of U.S. Customs Services Office of 
Investigation field and headquarters offices.
    Again, Mr. Parmer, thank you very much for being here with 
us.
    Again, our second witness, Thomas Winkowski, was first 
appointed assistant commissioner for the Office of Field 
Operations at Customs and Border Protection in August 2007.
    In that position he manages an operating budget approaching 
$2.5 billion, directs the activities of 24,000 employees and 
oversees programs and operations of 20 major field offices, 326 
ports of entry, 58 operational Container Security Initiative 
ports and 15 pre-clearance stations.
    Mr. Winkowski, again, we want to thank you. We got that 
tour of the center last week, and we want to thank you for your 
hospitality and the information that you provided us last week.
    Our third witness is Mr. David Donahue, who has been the 
deputy assistant secretary for visa services in September 2008.
    Mr. Donahue, thank you very much for being here with us.
    Prior to that, he was the director of the Office of Policy 
Coordination and Public Affairs in the Bureau of Consular 
Affairs. He was a minister counselor for the consular affairs 
in Mexico City from 2005 and 2007. I guess you served there 
with my friend Tony Garza from South Texas, also, Brownsville, 
Texas.
    Previous to that, he served at posts in the Philippines, 
Pakistan, Singapore, Trinidad, and Washington, DC. Mr. Donahue 
joined the Foreign Service in 1983.
    Again, I want to thank all of you all for being here. 
Without objection, the witnesses' full statements will be 
inserted in the record, and we will ask you to hold at ease for 
a while, and we will be back right after the votes. Thank you 
very much for being here.
    Committee recess.
    [Recess.]
    Mr. Cuellar. All right. The subcommittee will resume again.
    I believe Mr. Souder has a statement, and you want--you 
just want to go ahead and submit that for the record? Okay. 
Without objection, the record will be--the statement will be 
part of the record.
    [The statement of Mr. Souder follows:]
             Prepared Statement of Honorable Mark E. Souder
                             March 11, 2010
    Thank you, Mr. Chairman. I would first like to congratulate you on 
the new subcommittee chairmanship. I know that we have had some 
briefings prior to this but this is your first official hearing as the 
Border, Maritime, and Global Counterterrorism Chair. I look forward to 
working with you over the rest of the Congress to examine issues under 
the subcommittee's purview.
    I am pleased that we are here to examine visa security and 
passenger prescreening efforts in the wake of Flight 253. I also want 
to thank our witnesses for appearing before our subcommittee today to 
discuss this very important topic.
    I want to say at the outset that, in my view, the Department needs 
to more aggressively strengthen its capabilities to improve visa 
security, bolster passenger prescreening, and expand border security 
efforts overseas to prevent potential terrorists from boarding 
airplanes bound for the United States.
    The events of this past Christmas day show that terrorists remain 
committed to exploiting weaknesses in our homeland security and 
carrying out horrendous acts of violence against American citizens in a 
very coordinated and methodical manner.
    I am quite concerned that our visa security and passenger 
prescreening efforts are not nearly as comprehensive and robust as they 
need to be to prevent someone like Umar Farouk Abdulmutallab from 
slipping through cracks in our defenses.
    Unfortunately, we need only look at the Department's budget request 
for terrorist travel programs related to visa security and passenger 
prescreening to see those cracks. The Department's fiscal year 2011 
budget request fails to sufficiently fund key programs and initiatives 
that can help identify terrorists seeking to travel to the United 
States. It represents a missed opportunity to expand border security 
efforts overseas and move toward a more coordinated strategy for 
expanding our Nation's security perimeter.
    For instance, funding for the Visa Security Program, which places 
ICE personnel in high-risk locations overseas to more carefully 
scrutinize visa applicants, will not allow for expansion of this 
critical terrorist detection program in needed areas. ICE has 
identified several dozen locations in which Visa Security Units should 
be located, but insufficient funding and diplomatic resistance from the 
State Department has slowed its expansion, so much so that it would 
take many years to put units where ICE has identified that they are 
needed.
    The budget for CBP eliminates funding for advanced passenger 
screening and targeting to help determine whether passengers should be 
prevented from boarding flights prior to their departure for the United 
States. These programs help assess potential passenger risk and 
determine whether heightened scrutiny of those passengers is necessary. 
CBP has acknowledged that this reduction will have an operational 
impact, but insists that the funds used for these programs are needed 
for other priorities. I understand that there is intention to continue 
to fund this mission from within the base CBP budget, while a good step 
raises transparency issues and begs the question of what else is being 
cut.
    The budget also fails to provide additional funding for tracking 
foreign students in the United States and would eliminate funding for 
the US-VISIT air exit, which is a key program necessary to identify 
visa overstays. It is extremely disconcerting that DHS would present a 
budget to Congress without funding or a plan to address this 
vulnerability.
    These programs, and other existing capabilities to detect and 
disrupt terrorist travel, should be guided by a strategic plan designed 
to maximize our ability to connect-the-dots given appropriate 
information and further enhance the layered security necessary to stop 
future attacks. Congress has given the Department the tools its needs 
to push our border perimeter far beyond our physical shore so that 
terrorists are not able to get into the country to commit their 
despicable acts like they did on 9/11.
    I am greatly troubled then that nearly 8\1/2\ years after the 
September 11 attacks, the Department either plans to scale back or 
fails to aggressively move forward on initiatives and programs that can 
help prevent a repeat of such terrible events.
    I hope that we are going to hear from today's witnesses about how 
visa security has been improved and passenger prescreening has and can 
be further strengthened in the aftermath of the attempted bombing of 
Flight 253. I certainly have my doubts based on the Department's budget 
request for these areas for the coming fiscal year.
    Mr. Chairman, I know that you are as committed as I am to ensuring 
that we are doing everything within our power to expand our border 
security efforts overseas to protect American citizens and prevent 
terrorists from entering our country. I hope today's hearing will 
provide insights to help us do that.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    Mr. Cuellar. At this time, as you recall--and again, we 
apologize. As you know, we have had different votes. We just 
finished, I believe, for the day, so what we will do now is 
that we will go ahead and start off with the witnesses.
    Mr. Parmer, as you know, we just introduced everybody right 
before we left, so we will start off with Mr. Parmer. I would 
ask you to summarize your statement for 5 minutes, and then we 
will go on with Tom, and then other folks here will go ahead 
and ask the questions.
    So, Mr. Parmer.

   STATEMENT OF RAYMOND R. PARMER, JR., DIRECTOR, OFFICE OF 
      INTERNATIONAL AFFAIRS, U.S. IMMIGRATION AND CUSTOMS 
          ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Parmer. Chairman Cuellar, Ranking Member Souder, thank 
you on behalf of Secretary Napolitano and Assistant Secretary 
Morton for the opportunity to discuss the international efforts 
of ICE to protect National security and prevent terrorist 
attacks.
    Today, I would like to discuss the Visa Security Program in 
the context of the 9/11 Commission's findings, which emphasized 
the importance of our immigration system more thoroughly 
vetting individuals entering our country and developing 
functional counterterrorism measures.
    Within the Department of Homeland Security, ICE's Visa 
Security Program is one of a number of programs designed to 
protect the homeland and identify individuals who present a 
risk before they can harm the United States.
    The Visa Security Program places ICE special agents in a 
U.S. embassies to work collaboratively with Department of State 
consular officers and diplomatic security agents to secure the 
visa adjudication process.
    Before describing the Visa Security Program, the plans for 
expansion and challenges of expanding, let me describe ICE's 
international efforts more generally.
    As the second-largest Federal investigative agency, ICE has 
a significant international footprint. Through our Office of 
International Affairs, ICE has 63 offices in 44 countries that 
are staffed by over 300 personnel.
    ICE personnel in these offices collaborate with foreign 
counterparts to disrupt and dismantle transnational criminal 
organizations engaged in money laundering, contraband 
smuggling, weapons proliferation, forced child labor, human 
rights violations, intellectual property rights violations, 
child exploitation, human smuggling and trafficking, as well as 
facilitate repatriation of individuals with final orders of 
removal.
    ICE's Office of International Affairs is also responsible 
for administering and staffing the Visa Security Program. The 
visa adjudication process is often the first opportunity our 
Government has to assess whether a potential visitor or 
immigrant presents a threat to the United States.
    The U.S. Government has long recognized the importance of 
this function to National security. DHS regards the visa 
process as an important part of the border security strategy, 
and the Visa Security Program is one of several programs 
focused on minimizing global risks.
    The Visa Security Program relies on trained, experienced 
investigators to look at an applicant in greater depth and 
examine their social networks and business relationships with a 
goal of developing information previously unknown to the U.S. 
Government to assess whether individual applicants pose 
security threats to the United States.
    To conduct a thorough investigation, an ICE agent assigned 
to a Visa Security Unit must have the ability to interview the 
applicant of concern and must be exposed to local information 
to understand whether the applicant's affiliations raise any 
particular flags.
    Each individual security--Visa Security Unit, with input 
from the State Department, develops a targeting plan based on 
assessed conditions and threats. Depending on the nature of the 
concern that an applicant poses a threat, the ICE agent's 
investigation may be complex and in depth, and in some cases 
taking months to complete.
    Of course, not every investigation lasts months. ICE agents 
assigned to the Visa Security Program are experienced law 
enforcement agents who have spent years developing interview, 
interrogation, and other skills while investigating crimes in 
the United States.
    Visa Security Program efforts complement the consular 
officers' responsibility for interviewing the applicant, 
reviewing the application and supporting documentation, and 
conducting automated screening of criminal and terrorist 
databases, with proactive law enforcement vetting and 
investigation.
    ICE now has Visa Security Units at 14 high-risk visa 
adjudication posts in 12 countries. At these 14 posts, in 
fiscal year 2009, ICE agents screened approximately 905,000 
visa applicants and, with their State Department colleagues, 
determined that about 302,000 required further review.
    Following investigation, in collaboration with State 
Department, ICE recommended refusal of over 1,000 applicants. 
In every instance, State Department followed the Visa Security 
Unit recommendation and ultimately refused to issue the visa. 
Visa Security Program recommendations have also resulted in 
State Department visa revocations.
    Under the direction of the Homeland Security Council, 
beginning in May 2008, ICE and the State Department 
collaborated on the development of the Visa Security Program 
site selection methodology. The process for selecting a 
particular site for a Visa Security Unit begins with a site 
evaluation, which involves a quantitative analysis of threats 
posed and site assessment visits.
    The DHS formal nomination process follows, which involves 
an analysis of ICE's proposal by DHS. Then, the National 
Security Decision Directive--38 process, which is a mechanism 
that gives the chief of mission in a particular post control 
over the size, composition, and mandate of full-time staffing 
for the post, commences within the State Department. Only once 
the chief of mission has approved an NSDD-38 request can ICE 
begin deployment.
    ICE continues to look for opportunities to establish new 
offices overseas to screen and vet additional visa applicants 
at high-risk visa-issuing posts.
    Based on collaborative site selection methodology with the 
State Department, ICE has conducted additional classified 
threat assessments in preparation for joint ICE-State 
Department site visits to embassies and consulates abroad.
    Assistant Secretary Morton and his counterpart at the State 
Department are engaged now in a process of determining a common 
strategic approach to the broader question of how to 
collectively secure the visa issuance process.
    I would now like to briefly discuss the security advisory 
opinion process, which is administered by the State Department 
and supported by other Government agencies to provide consular 
officers advice and background information to adjudicate visa 
applications abroad in cases of security or foreign policy 
interest.
    In May 2007, Congress mandated the creation of a Security 
Advisory Opinion Unit within the Visa Security Program. The 
Visa Security Program now supports the SAO process and the 
Security Advisory Opinion Unit's findings are incorporated into 
the overall SAO recommendation used by consular officers to 
adjudicate visa applications.
    The Security Advisory Opinion currently has co-located 
personnel at the Human Smuggling and Trafficking Center and 
CBP's National Targeting Center for Passengers and also has 
personnel assigned to the National Counterterrorism Center.
    The integration of the Security Advisory Opinion Unit into 
these centers allows for real-time dissemination of 
intelligence between the various stakeholders in the visa 
adjudication process.
    Again, thank you for the opportunity to appear before you 
today and for the subcommittee's continued support of ICE and 
our law enforcement mission.
    Assistant Secretary Morton and I, in partnership with State 
Department, CBP and other vital partners, will continue 
collaborating to ensure the security of the visa while 
maintaining a fair and efficient process for legitimate 
visitors and immigrants to enter the United States.
    I would be pleased to answer any questions you would have 
at this time.
    [The statement of Mr. Parmer follows:]
              Prepared Statement of Raymond R. Parmer, Jr.
                             March 11, 2010
                              introduction
    Chairman Cuellar, Ranking Member Souder, distinguished Members of 
the subcommittee: On behalf of Secretary Napolitano and Assistant 
Secretary Morton, thank you for the opportunity to discuss the 
international efforts of U.S. Immigration and Customs Enforcement (ICE) 
to protect National security and prevent terrorist attacks. Today, I 
plan to discuss the Visa Security Program (VSP) in the context of the 
9/11 Commission's findings, which emphasized the importance of our 
immigration system more thoroughly vetting individuals entering our 
country and developing functional counterterrorism measures. Within the 
Department of Homeland Security (DHS), ICE's VSP is one of a number of 
programs designed to protect the homeland and identify individuals who 
present a risk before they can harm the United States. The VSP places a 
DHS law enforcement officer (i.e., an ICE special agent) in a U.S. 
embassy to work collaboratively with Department of State (DOS) consular 
officers and Diplomatic Security Agents to secure the visa adjudication 
process. Before describing the VSP, our budget, the plans for 
expansion, and challenges of expanding, let me describe ICE's 
international efforts more generally.
ICE's Presence Overseas
    ICE, as the second-largest Federal investigative agency, has a 
significant international footprint. ICE, through our Office of 
International Affairs (OIA), has 63 offices in 44 countries, staffed by 
more than 300 personnel. ICE personnel in these offices collaborate 
with foreign counterparts in joint efforts to disrupt and dismantle 
transnational criminal organizations engaged in money laundering, 
contraband smuggling, weapons proliferation, forced child labor, human 
rights violations, intellectual property rights violations, child 
exploitation, and human smuggling and trafficking, and facilitate 
repatriation of individuals with final orders of deportation. In fiscal 
year 2009, ICE opened offices in: Amman, Jordan; Brussels, Belgium; 
Cartagena, Colombia; Guayaquil, Ecuador; and Jakarta, Indonesia and 
continued to expand its coordination with U.S. military commands, 
specifically United States Southern Command (SOUTHCOM), United States 
African Command (AFRICOM), and United States European Command (EUCOM). 
In fiscal year 2010, to increase our overseas presence and advance the 
efforts to investigate crimes that reach beyond our borders, ICE is 
proposing to open offices in Afghanistan, Israel, Vietnam, and Yemen.
    ICE's OIA is responsible for administering and staffing the VSP.
The Visa Security Program
    During the creation of DHS, Congress gave DHS some oversight 
responsibilities for the visa process. Specifically, Section 428 of the 
Homeland Security Act (HSA) of 2002 authorized the Secretary of 
Homeland Security to: Administer and enforce the Immigration and 
Nationality Act (INA) and other laws relating to visas; refuse visas 
for individual applicants in accordance with law; assign DHS officers 
to diplomatic posts to perform visa security activities; initiate 
investigations of visa security-related matters; and provide advice and 
training to consular officers. In short, the HSA directed DHS to assist 
in the identification of National security threats to the visa security 
process.
    The visa adjudication process is often the first opportunity our 
Government has to assess whether a potential visitor or immigrant 
presents a threat to the United States. The U.S. Government has long 
recognized the importance of this function to National security. DHS 
regards the visa process as an important part of the border security 
strategy, and VSP is one of several programs focused on minimizing 
global risks. The VSP relies on trained law enforcement agents to look 
at an applicant in greater depth and examine their social networks and 
business relationships with a goal of developing information previously 
unknown to the U.S. Government to assess whether individual applicants 
pose security threats to the United States. ICE agents assigned to Visa 
Security Units (VSU) are professional law enforcement agents who focus 
on selected applicants and any connection the applicants may have to 
terrorism. In the context of the visa security process, they begin by 
reviewing documents submitted by applicants, and reviewing the results 
of automated checks (from the Consular Lookout and Support System 
(CLASS), and others). To conduct a thorough investigation, an ICE agent 
assigned to a VSU must have the ability to interview the applicant of 
concern and must be exposed to local information to understand whether 
the applicant's affiliations raise any particular flags. Each 
individual VSU, with input from DOS, develops a targeting plan, based 
on assessed conditions and threats. Depending on the nature of the 
concern that an applicant poses a threat, the ICE agent's investigation 
may be complex and in-depth, in some cases taking months to complete. 
Of course, not every investigation lasts months. ICE agents assigned to 
the VSP are experienced law enforcement agents who have spent years 
developing interview, interrogation, and other skills while 
investigating crimes in the United States.
    DHS does not participate in all visa adjudication procedures; 
rather, DHS becomes a part of the process following initial screening 
of an applicant. As such, where VSUs are present, DOS consular officers 
and ICE agents must establish effective and productive partnerships in 
order to enhance the security of the visa process.
    VSP efforts complement the consular officers' responsibility for 
interviewing the applicant, reviewing the application, and supporting 
documentation and conducting automated screening of criminal and 
terrorist databases, with proactive law enforcement vetting and 
investigation. In carrying out this mission, ICE special agents conduct 
targeted, in-depth law enforcement-focused reviews of individual visa 
applications and applicants prior to issuance, as well as recommend 
refusal or revocation of applications when warranted.
    ICE now has VSUs at 14 high-risk visa adjudication posts in 12 
countries. While I can not identify the specific posts in this forum, I 
will gladly brief the Members and staff of this subcommittee in a 
classified or law enforcement-sensitive setting at a later date. At 
these 14 posts, in fiscal year 2009, ICE agents screened 904,620 visa 
applicants and with their DOS colleagues determined that 301,700 
required further review. Following investigation, in collaboration with 
their DOS colleagues, ICE recommended refusal of over 1,000 applicants. 
In every instance, DOS followed the VSU recommendation and ultimately 
refused to issue the visa. VSP recommendations have also resulted in 
DOS visa revocations.
Expansion of the Visa Security Program
    Under the direction of the Homeland Security Council, beginning in 
May 2008, ICE and DOS collaborated on the development of the VSP Site 
Selection Methodology. In brief, the process for selecting a particular 
site for a VSU begins with an ICE site evaluation, which involves a 
quantitative analysis of threats posed and site assessment visits. The 
DHS formal nomination process follows, involving an analysis of ICE's 
proposals by DHS. Then, the National Security Decision Directive--38 
(NSDD-38) process, a mechanism that gives the Chief of Mission in a 
particular post control over the size, composition, and mandate of 
full-time staffing for the post, commences within DOS. Only once the 
Chief of Mission has approved an NSDD-38 request can ICE begin 
deployment.
    ICE continues to look for opportunities to establish offices 
overseas to screen and vet additional visa applicants at high-risk visa 
issuing posts beyond the 14 posts at which we are currently operating. 
The fiscal year 2010 budget designated $7.3 million for VSP expansion. 
With this funding level, ICE estimates that it can deploy to four 
additional posts. ICE has been conducting site visits and facilitating 
the NSDD-38 process in an effort to determine whether it would be 
beneficial to expand VSP operations to additional high-risk visa 
adjudicating posts. Based on collaborative site selection methodology 
with DOS, ICE conducted additional classified threat assessments on 
four posts in preparation for joint VSP-DOS site visits to embassies/
consulates abroad. The VSP program has continued to grow since its 
inception. While ICE is continuing to expand the program, further 
expansion is contingent on ICE's dedicating existing overseas funding 
to these efforts and approval of NSDD-38 requests at the posts in 
question.
    ICE will continue moving forward to deploy new offices to the 
highest risk visa adjudicating posts worldwide as resources allow, and 
will continue to conduct joint site visits with DOS to create 
opportunities for deployment. Moreover, ICE recognizes that the VSP is 
but one relatively small component in the Nation's counterterrorism 
strategy. Assistant Secretary Morton and his counterparts at DOS are 
engaged now in a process of determining a common strategic approach to 
the broader question of how best to collectively secure the visa 
issuance process. We look forward to continuing to report back to you 
with updates on this process.
Recent Successes
    To put the VSP discussion in perspective, I offer two brief 
examples of the results of including ICE in the visa process. In 
September 2008, DOS raised concerns about visa applicants sponsored by 
an international non-governmental sports group. ICE investigated and 
determined that the majority of past applicants sponsored by the group 
remained in the United States beyond their period of admission and that 
the sport group's president had three previous visa denials, with one 
on National security grounds. ICE disseminated information about 
potential future applicants throughout DHS and to DOS visa-issuing 
posts. This equipped CBP inspectors stationed at airports and the 
border and DOS consular officers with detailed information about the 
sports group to prevent future use of the club as a mechanism to gain 
entry into the United States, and to prevent National security threats 
from exploiting the scheme to gain entry.
    Second, in July 2009, again while examining visa applications, ICE 
agents identified an Iranian national who applied for a visitor's visa 
to come to the United States to attend an information technology (IT) 
conference on behalf of his employer. Although the Security Advisory 
Opinion (SAO) process did not reveal a basis to find the Iranian 
national ineligible, ICE's review revealed that the Iranian national's 
employer--on whose behalf he was attending the IT conference--is an 
Office of Foreign Assets Control (OFAC)-designated organization 
allegedly used by the government of Iran to transfer money to terrorist 
organizations, including Hezbollah, Hamas, the Popular Front for the 
Liberation of Palestine--General Command and Palestinian Islamic Jihad. 
The visa applicant himself stated that he planned to attend the IT 
conference to explore the purchase of technology for his employer. 
While attending the conference alone did not render the Iranian 
national inadmissible, the combination of attending on behalf of his 
employer (an OFAC-designated entity) and the stated purpose to 
``explore purchasing options'' for IT equipment constituted reasonable 
grounds for denial of the visa. Therefore, ICE recommended that DOS 
deny the visa on National security grounds, in accordance with the INA, 
as his purpose for coming to the United States was to possibly procure 
IT equipment for a designated OFAC organization. DOS concurred with 
ICE's recommendation and denied the visa.
    I offer these examples to illustrate in real terms the benefit of a 
strong working relationship with DOS, and how the partnership advances 
the goal of preventing those who may intend to harm the United States 
from using a visa to enter our Nation.
The Visa Security Program's Security Advisory Opinion Unit (SAOU)
    The Security Advisory Opinion (SAO) process is the mechanism 
administered by DOS, supported by other Government agencies, to provide 
consular officers advice and background information to adjudicate visa 
applications abroad in cases of security or foreign policy interest. In 
May 2007, Congress mandated the creation of a Security Advisory Opinion 
Unit (SAOU) within the VSP. VSP now supports the SAO process and the 
SAOU's findings are incorporated into the overall SAO recommendation 
used by consular officers to adjudicate targeted visa applications of 
National security or foreign policy interest.
    The SAOU is currently operating a pilot program that screens visa 
applicants and communicates any potential admissibility concerns to 
DOS. The SAOU currently has co-located personnel at the Human Smuggling 
and Trafficking Center (HSTC), the National Targeting Center-Passenger 
(NTC-P), both located in the National Capital Region, and also has 
personnel assigned to the National Counterterrorism Center (NCTC). The 
integration of the SAOU into these centers allows for real-time 
dissemination of intelligence between the various stakeholders in the 
visa adjudication process.
                               conclusion
    I would like to thank the subcommittee for the opportunity to 
testify today and for its continued support of ICE and our law 
enforcement mission. Assistant Secretary Morton and I, in partnership 
with the State Department and other vital partners, will continue 
collaborating to ensure the security of the visa while maintaining a 
fair and efficient process for legitimate visitors and immigrants to 
enter the United States.
    I would be pleased to answer questions you may have at this time.

    Mr. Cuellar. Thank you, Mr. Parmer, for your testimony.
    At this time I will recognize Mr. Winkowski for 5 minutes 
for your testimony.

   STATEMENT OF THOMAS S. WINKOWSKI, ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Thank you, Chairman Cuellar, Ranking Member 
Souder, and thank you for the opportunity to appear today to 
discuss the steps U.S. Customs and Border Protection takes to 
pre-screen travelers bound for the United States.
    I appreciate the committee's leadership and your steadfast 
efforts to ensure security of the American people.
    Also, Mr. Chairman, I would just like to thank you for 
taking the time from your busy schedule to visit us at the NTC 
a few weeks ago.
    Today I want to describe the role that CBP currently 
performs in aviation security and the enhanced security 
measures implemented in the aftermath of the attempted 
Christmas day attack.
    As part of our efforts to screen passengers bound for the 
United States, CBP is an end-user of the U.S. Government's 
consolidated terrorist watch list, which we use to help keep 
potential terrorists off flights bound for the United States 
and identify travelers that require additional screening.
    The majority of travelers bound for the United States are 
required to either have a visa issued by the Department of 
State or are traveling under the Visa Waiver Program, an 
electronic travel authorization issued through the Electronic 
System for Travel Authorization, most commonly referred to now 
as ESTA.
    ESTA enables CBP to conduct enhanced screening of VWP 
applicants in advance of travel to the United States in order 
to assess whether they could pose a risk to the Nation. When a 
traveler purchases a ticket for the--for travel to the United 
States, a passenger name record may be generated in the 
airlines reservation system.
    A PNR may contain various data elements such as itinerary, 
co-travelers, changes to the reservation and payment 
information. CBP receives PNR data from the airline at various 
stages, beginning as early as 72 hours prior to departure and 
concluding at the scheduled departure time of the flight.
    CBP uses the Automated Targeting System to evaluate the PNR 
data against targeting rules. It is important to note that PNR 
data received by airlines varies and may be incomplete, thus 
resulting--reflecting different information than the person's 
actual travel documentation.
    On the day of departure, when an individual checks in for 
his intended flight, the basic biographic information from the 
individual's passport is collected by the air carrier and 
submitted to CBP's Advance Passenger Information System, APIS.
    APIS data is far more complete and considered more accurate 
than PNR data. DHS screens APIS information on international 
flights to and from the United States against the Terrorist 
Screening Database, TSDB, as well as against criminal history 
information, records of lost or stolen passports and prior 
immigration or customs violations.
    At nine airports in seven countries, CBP officers are 
stationed under the Immigration Advisory Program. Working with 
CBP's National Targeting Center, IAP officers are provided 
information on certain passengers who may constitute a security 
risk.
    These officers can then make no-board recommendations to 
carriers and host governments but do not have the authority to 
arrest, detain, or prevent passengers from boarding planes.
    While flights are en route to the United States, CBP 
continues to evaluate the APIS and PNR information submitted by 
the airlines. At this point, a further assessment of 
individuals' admissibility into the United States is conducted 
and a determination is made as to whether an individual 
requires additional screening prior to admission.
    Upon arrival in the United States, travelers present 
themselves to a CBP officer for inspection. Based on the 
information gathered during the in-flight analysis as well as 
the on-site CBP officers' inspection, which includes examining 
travel documents, observing and interviewing the traveler, a 
determination is made as to whether the traveler should be 
referred for a secondary inspection or admitted to the United 
States.
    Since Christmas day, CBP has undertaken a number of steps 
to enhance our current process. We have expanded the 
information referred to IAP officers. We also began additional 
pre-screening of passengers traveling from non-IAP locations.
    Officers assigned to our Regional Carrier Liaison Group, of 
which we have three around the country working for--working 
with the NTC, makes recommendations to foreign carriers to deny 
boarding to individuals traveling to the United States who have 
been identified as being a National security risk, are 
ineligible for admission, or are traveling on fraudulent or 
fraudulently obtained documents.
    Through intelligence-sharing agreements, CBP continues to 
work with our foreign government counterparts as well as CBP 
and ICE attaches in order to share information as necessary and 
appropriate.
    While we address the circumstances behind the specific 
incident, we must also recognize the evolving threat posed by 
terrorists and take action to ensure that our defenses continue 
to evolve in order to defeat them.
    We live in a world of ever-changing risk, and we must move 
as aggressively as possible both to find and fix security flaws 
and anticipate future vulnerabilities.
    Chairman Cuellar, thank you very much for the opportunity 
to testify, and I look forward to answering your questions.
    [The statement of Mr. Winkowski follows:]
               Prepared Statement of Thomas S. Winkowski
                             March 11, 2010
    Chairman Cuellar, Ranking Member Souder, and distinguished Members 
of the subcommittee. Thank you for the opportunity to appear today to 
discuss the steps U.S. Customs and Border Protection (CBP) takes to 
pre-screen travelers bound for the United States. I appreciate the 
committee's leadership, and your steadfast efforts to ensure the 
security of the American people.
    The attempted attack on Northwest Flight 253 on December 25 was a 
powerful reminder that terrorists will go to great lengths to defeat 
the security measures that have been put in place since September 11, 
2001. As Secretary Napolitano has testified at recent hearings 
regarding the attempted attack, this administration is determined to 
thwart terrorist plots and disrupt, dismantle, and defeat terrorist 
networks by employing multiple layers of defense that work in concert 
with one another to secure our country. This is an effort that involves 
not just CBP, but components across the Department of Homeland Security 
and many other Federal agencies as well as State, local, Tribal, 
territorial, private sector, and international partners.
    Today I want to describe the role that CBP currently performs in 
aviation security and the enhanced security measures implemented in the 
aftermath of the attempted Christmas day attack.
                cbp's role in multiple layers of defense
    Since 9/11, the U.S. Government has employed multiple layers of 
defense across several departments and agencies to secure the aviation 
sector and ensure the safety of the traveling public. Different Federal 
agencies bear different responsibilities, while other countries and the 
private sector--especially the air carriers themselves--also have 
important roles to play.
    CBP is responsible for securing our Nation's borders while 
facilitating the movement of legitimate travel and trade vital to our 
economy. Our purview spans more than 5,000 miles of border with Canada 
and 1,900 miles of border with Mexico. CBP is the largest uniformed, 
Federal law enforcement agency in the country, with over 20,000 Border 
Patrol Agents operating between the ports of entry and more than 20,000 
CBP officers stationed at air, land, and sea ports Nation-wide. These 
forces are supplemented with more than 1,100 Air and Marine agents, and 
2,300 agricultural specialists and other professionals. In fiscal year 
2009 alone, CBP processed more than 360 million pedestrians and 
passengers, 109 million conveyances, apprehended over 556,000 illegal 
aliens between our ports of entry, encountered over 224,000 
inadmissible aliens at the ports of entry, and seized more than 5.2 
million pounds of illegal drugs. Every day, CBP processes over 1 
million travelers seeking to enter the United States by land, air, or 
sea.
    In order to counter the threat of terrorism and secure our borders, 
CBP relies on a balanced mix of professional law enforcement personnel, 
advanced technologies, and fully modernized facilities and 
infrastructure both at and between the ports of entry. We deploy a 
cadre of highly trained agents and officers who utilize state-of-the-
art technologies to quickly detect, analyze, and respond to illegal 
breaches across the borders. These personnel rely upon a solid backbone 
of tactical infrastructure to facilitate their access to border areas 
while impeding illegal entry by persons or vehicles into the United 
States. CBP Officers utilize advanced targeting, screening, and 
inspection technologies to quickly identify persons or cargo that 
warrant additional scrutiny without unduly impeding the traveling 
public or commerce.
CBP and Intelligence
    In 2007, CBP created the Office of Intelligence and Operations 
Coordination (OIOC), which serves as the situational awareness hub for 
CBP, providing timely, relevant information, and actionable 
intelligence to operators and decision-makers and improving 
coordination of CBP-wide operations. Through prioritization and 
mitigation of emerging threats, risks, and vulnerabilities, OIOC 
enables CBP to better function as an intelligence-driven operational 
organization. The OIOC serves as a single, central repository for 
agency-wide intelligence, while exploring new ways to analyze and fuse 
information.
    As part of our efforts to screen passengers bound for the United 
States, CBP is a consumer of the U.S. Government's consolidated 
terrorist watch list, which we use to help keep potential terrorists 
off flights bound for the United States and to identify travelers that 
require additional screening. Specifically, DHS uses the Terrorist 
Screening Database (TSDB), managed by the Terrorist Screening Center, 
as well as other information provided through the intelligence 
community, to determine who may board flights, who requires further 
screening and investigation, who should not be admitted, or who should 
be referred to appropriate law enforcement personnel.
National Targeting Center-Passenger (NTC-P)
    A key tool for DHS in analyzing, assessing, and making 
determinations based on the TSDB and other intelligence information, is 
the National Targeting Center (NTC). The NTC is a 24/7 operation, 
established to provide tactical targeting information aimed at 
interdicting terrorists, criminal actors, and prohibited items. Crucial 
to the operation of the NTC is CBP's Automated Targeting System (ATS), 
a primary platform used by DHS to match travelers and goods against 
screening information and known patterns of illicit activity. Since its 
inception after 9/11, the NTC has evolved into two Centers: the 
National Targeting Center Passenger (NTC-P) and the National Targeting 
Center Cargo (NTC-C).
    This year, Immigration and Customs Enforcement (ICE) began 
deploying Visa Security Program (VSP) personnel to the NTC-P to augment 
and expand current operations. Through the VSP, ICE stations agents at 
embassies and consulates to assist the State Department in identifying 
visa applicants who may present a security threat. The focus of the VSP 
and NTC-P are complementary: The VSP is focused on identifying 
terrorists and criminal suspects and preventing them from reaching the 
United States, while the NTC-P provides tactical targeting and 
analytical research in support of preventing terrorist and terrorist 
weapons from entering the United States. The co-location of VSP 
personnel at the NTC-P has helped increase communication and 
information sharing.
Safeguards for Visas and Travel
    One of the first layers of defense in securing air travel involves 
safeguards to prevent dangerous people from obtaining visas, travel 
authorizations, and boarding passes. To apply for entry to the United 
States prior to boarding flights bound for the United States or 
arriving at a U.S. port of entry, most foreign nationals need visas--
issued by a U.S. embassy or consulate--or, if eligible to travel under 
the Visa Waiver Program (VWP) country, travel authorizations issued 
through the Electronic System for Travel Authorization (ESTA).\1\
---------------------------------------------------------------------------
    \1\ Exceptions would be citizens of countries under other visa 
waiver authority such as the Western Hemisphere Travel Initiative or 
the separate visa waiver program for Guam and the Commonwealth of the 
Northern Mariana Islands, or those granted individual waivers of the 
visa requirement under the immigration laws.
---------------------------------------------------------------------------
    Issuing visas is the responsibility of the Department of State 
(DOS), which screens all visa applicants biographic data against the 
TSDB for terrorism-related concerns and screens their biometric data 
(fingerprints and facial recognition) against other U.S. Government 
databases for security, criminal, and immigration violation concerns. 
For individuals traveling under the VWP, DHS operates ESTA, a web-based 
system through which individuals must apply for travel authorization 
prior to traveling to the United States. ESTA enables CBP to conduct 
enhanced screening of VWP applicants in advance of travel to the United 
States in order to assess whether they could pose a risk to the United 
States, including possible links to terrorism. On January 20, 2010, CBP 
began its transition to enforce ESTA compliance for air carriers, 
requiring all foreign nationals to present a valid authorization to 
travel to the United States at the airport of departure.
Pre-departure Screening
    When a traveler purchases a ticket for travel to the United States, 
a Passenger Name Record (PNR) may be generated in the airline's 
reservation system. PNR data contains various elements, which may 
include optional information on itinerary, co-travelers, changes to the 
reservation, and payment information. CBP receives PNR data from the 
airline at various intervals beginning 72 hours prior to departure and 
concluding at the scheduled departure time. CBP officers utilize the 
Automated Targeting System--Passenger (ATS-P) to evaluate the PNR data 
against ``targeting rules'' that are based on law enforcement data, 
intelligence, and past case experience.
    On the day of departure, when an individual checks-in for their 
intended flight, the basic biographic information from the individual's 
passport is collected by the air carrier and submitted to CBP's Advance 
Passenger Information System (APIS). APIS data, which carriers are 
required to provide to DHS at least 30 minutes before a flight for all 
passengers and crew on-board, contains important identifying 
information that may not be included in PNR data, including verified 
identity and travel document information such as a traveler's date of 
birth, citizenship, and travel document number. Carriers are required 
to verify the APIS information against the travel document prior to 
transmitting it to CBP. DHS screens APIS information on international 
flights to or from the United States against the TSDB, as well as 
against criminal history information, records of lost or stolen 
passports, and prior immigration or customs violations and visa 
refusals. APIS is also connected to Interpol's lost and stolen passport 
database for routine queries on all inbound international travelers.
    Another layer in the screening process is the Immigration Advisory 
Program (IAP), which stations CBP officers at nine airports in seven 
countries in coordination with the host foreign governments. CBP's 
National Targeting Center provides the IAP officers with non-U.S. 
Citizen and non-Legal Permanent Resident matches to the TSDB, of which 
the No-Fly list is a subset. CBP also flags anyone whose U.S. visa has 
been revoked, whose Electronic System for Travel Authorization (ESTA) 
has been denied, who is using a foreign lost or stolen passport, or who 
is included on a Public Health Record provided by the Centers for 
Disease Control and Prevention. IAP officers can make ``no board'' 
recommendations to carriers and host governments regarding passengers 
bound for the United States who may constitute security risks, but do 
not have the authority to arrest, detain, or prevent passengers from 
boarding planes.
Screening While En-Route to the United States and Upon Arrival
    While flights are en route to the United States, CBP continues to 
evaluate the APIS and PNR information submitted by the airlines. At 
this point, a further assessment of an individual's admissibility into 
the United States is conducted, and a determination is made as to 
whether an individual requires additional screening prior to admission.
    Upon arrival in the United States, travelers present themselves to 
a CBP officer for inspection. Based on the information garnered during 
the in-flight analysis, as well as the CBP officer's observations at 
the port of entry, a determination is made as to whether the traveler 
should be referred for a secondary inspection or admitted to the United 
States.
 enhanced security measures implemented since the christmas day attack
    Following the first reports of an attempted terrorist attack on 
Northwest Flight 253 on December 25, DHS immediately put in place 
additional security measures. Since then, CBP has undertaken a number 
of initiatives to enhance our security posture.
IAP Referrals
    As explained above, CBP officers stationed abroad under the IAP 
receive referrals from the NTC-P based on matches against the TSDB. 
Following the attempted attack in December, the NTC-P, in coordination 
with the OIOC, has expanded the information referred to IAP's to 
include all aliens that the State Department has identified as 
actually, or likely, having engaged in terrorist activity as well, as 
existed in that case. NTC-P and OIOC continue to work with the 
intelligence community to develop new rules to address the ever-
changing threat, while implementing specific operations to address 
these threats.
Referrals for non-IAP Airports
    On January 10, 2010, CBP also began pre-screening passengers 
traveling from non-IAP locations through the ATS-P framework. To 
accomplish this goal, the NTC-P works in coordination with officers 
assigned to the Regional Carrier Liaison Groups (RCLG). The RCLG are 
established in Honolulu, Miami, and New York and provide regional 
points of contact and coordination between international carriers, 
foreign immigration authorities, and other DHS entities. The RCLG 
respond to carrier inquiries concerning the validity of travel 
documents presented or admissibility of travelers. Additionally, CBP 
officers at the NTC-P work with the RCLG officers to make 
recommendations to foreign carriers that boarding be denied (off-loads) 
to individuals traveling to the United States who have been identified 
as being National security related threats, ineligible for admission or 
who are traveling on fraudulent or fraudulently obtained documents 
prior to boarding a flight to the United States. However, the final 
decision to board or not board remains with the carrier. This pre-
departure initiative mirrors our IAP efforts for flights originating 
from airports that do not currently have an IAP presence.
Enhanced Operational Protocols
    At home and abroad, CBP officers have been briefed on the current 
threat stream and continue to work with our international partners, air 
carriers, local police, border control, and counterterrorism 
authorities to recommend passengers traveling to and entering the 
United States for additional screening as needed. CBP has implemented 
enhanced operational protocols at 15 preclearance locations and all 
300-plus ports of entry in the United States. At airports, CBP has 
enhanced reviews of all incoming advanced passenger manifests based on 
current threats and have increased pre- and post-primary operations. At 
U.S. ports of entry, Passenger Analysis Units (PAU), and Counter 
Terrorism Response (CTR) teams continue carrying out targeted 
enforcement inspections, and have increased reviews of cargo manifest 
systems/databases by our Advance Targeting Unit (ATU) teams, and 
vehicle trunk inspections and truck cab checks. At POEs, the CTR team 
will normally be formed from CBP Officers assigned to special teams, or 
who possess prior counter-terrorism, antiterrorism, or intelligence-
related training or experience. These officers are then provided 
additional training in order to target persons or cargo that may 
warrant additional scrutiny. PAU and ATU are specifically designed to 
target passengers or cargo that may require CTR examination before they 
arrive at the POE. At seaports, CBP has heightened screening with Non 
Intrusive Inspection (NII) equipment of all cargo from countries of 
interest, and increased cargo and port perimeter sweeps.
    Through intelligence-sharing agreements, CBP continues to work with 
our counterparts in the United Kingdom, Canada, and Mexico, as well as 
CBP Attaches and representatives around the world, to share information 
as necessary and appropriate.
                               conclusion
    The attempted attack on Christmas day serves as a stark reminder 
that terrorists motivated by violent extremist beliefs are determined 
to attack the United States. President Obama and Secretary Napolitano 
have made clear that we will be unrelenting in using every element of 
our National power in our efforts around the world to disrupt, 
dismantle, and defeat al-Qaeda and other violent extremists.
    While we address the circumstances behind this specific incident, 
we must also recognize the evolving threats posed by terrorists, and 
take action to ensure that our defenses continue to evolve in order to 
defeat them. We live in a world of ever-changing risks, and we must 
move as aggressively as possible both to find and fix security flaws 
and anticipate future vulnerabilities. CBP will continue to work with 
our colleagues in DHS and the intelligence community to address this 
ever-changing threat.
    Chairman Cuellar, Ranking Member Souder, and Members of the 
committee, thank you for this opportunity to testify. I look forward to 
answering your questions.

    Mr. Cuellar. Thank you, Mr. Winkowski, for your time. 
Again, thank you for that visit to allow us to be there at the 
center. It was very informative.
    At this time, our last witness is Mr. Donahue.
    Mr. Donahue, if you can summarize your testimony in 5 
minutes.

 STATEMENT OF DAVID T. DONAHUE, DEPUTY ASSISTANT SECRETARY FOR 
 VISA SERVICES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Donahue. Chairman Cuellar, Ranking Member Souder and--I 
want to thank you for another opportunity to share with you how 
the State Department is making the visa process more secure, 
the revocation process more expeditious, and how we are 
enhancing interagency information sharing.
    The failed terrorist attack on Flight 253 revealed systemic 
failures in the U.S. Government's efforts to protect the people 
of the United States. The Department of State has been 
vigorously reviewing visa issuance and revocation criteria and 
determining how technological and procedural improvements can 
strengthen border protection.
    Our immediate response to the Detroit incident was to 
direct our overseas missions to include complete information 
about any previous and current U.S. visas in all Visa Viper 
cables. That is happening now.
    We also provided guidance on conducting a wide perimeter 
fuzzy search of our visa records.
    We reviewed our visa revocation procedures. The State 
Department uses its broad and flexible authority to revoke visa 
to protect our borders. Since 2001 we have revoked more than 
57,000 visas for a variety of reasons, including over 2,800 for 
suspected links to terrorism.
    We are using this revocation authority as we review our 
visa records against records in our CLASS lookout database, our 
Visa Viper reporting, TSA's No-Fly and Selectee lists, as well 
as other sources. We confirmed that most individuals in these 
databases hold no visas. Of those few who did, a great many 
were revoked prior to the current review. We also revoked a 
number of visas in consultation with our partners.
    We recognize the gravity of the threat we face and are 
working intensely with our colleagues from other agencies and 
our embassies and consulates overseas with the goal that no 
person who is known to pose a threat to our security holds a 
valid visa.
    We have visa offices present in virtually every country of 
the world, staffed by consular officers drawn from the 
Department's professional and mobile multilingual foreign 
service officer workforce, trained in analytic interview 
techniques.
    Our officers know that they are the first line of defense 
in border security. Our global presence, foreign policy 
mission, and personnel structure give us singular advantages in 
executing the visa function throughout the world.
    Our officers know that U.S. security is paramount. Each 
consular officer is required to complete the Department's basic 
consular course at the National Foreign Affairs Training Center 
prior to performing consular duties.
    The course in continuing education places strong emphasis 
on border security and training in counterterrorism, fraud 
prevention, name checking, and other techniques.
    Visa applicants are screened against DHS and FBI name-based 
and biometric databases as well as the 27 million names in our 
own CLASS database. Visas cannot be issued without further 
review for any applicant in the Terrorist Screening Database.
    Applicants are also screened against our large and ever-
growing facial recognition database. Our Security Advisory 
Opinion mechanism provides officers with the necessary advice 
and background information to adjudicate the cases of visa 
applicants with possible terrorist ineligibilities.
    We are not afraid to say no. In fact, we denied more than 2 
million visas in fiscal year 2009.
    We also want to encourage legitimate travel to the United 
States. Tourism creates jobs for Americans and encourages 
understanding and appreciation of our values.
    Within the Department we have a dynamic partnership between 
the Bureau of Consular Affairs, the Bureau of Diplomatic 
Security, the Office of the Coordinator for Counterterrorism 
and the Bureau of Intelligence and Research that add valuable 
law enforcement, investigative, and intelligence components to 
our capabilities.
    We have 145 officers devoted to fraud prevention and 
document security world-wide. Seventy-three consular sections 
overseas have diplomatic security--assistant regional security 
officer investigator positions devoted to maintaining the 
integrity of the visa and passport process.
    We are deploying an electronic visa application form which 
will provide more information to adjudicating officers and our 
partner agencies and facilities--and facilitate our ability to 
detect terrorism and fraud.
    We are working with our interagency partners on the 
development and pilot testing of a new intelligence-based SAO 
system that will make full use of the additional application 
data.
    We give other agencies immediate access to 13 years of visa 
data containing 136 million immigrant and non-immigrant visa 
records, and they use this effectively. In February 2010 alone, 
more than 18,000 employees of the Department of Homeland 
Security, Department of Defense, FBI, and Commerce made just 
over 1 million queries on our records.
    We embrace a layered approach to border security screening 
and are fully supportive of DHS Visa Security Program. We have 
a particularly close and productive partnership with our DHS 
colleagues here.
    DHS US-VISIT receives all the information we collect from 
visa applicants, including fingerprint data or use of ports of 
entry to confirm the identity of travelers.
    Visa Security Units of the Immigration and Customs 
Enforcement, ICE, currently operate 14 visa adjudicating posts 
in 12 countries.
    Since January 2010 chiefs of mission have received requests 
from ICE to open four VSUs and to augment staff at two existing 
VSUs. Using their authority, chiefs of mission have approved 
all four of the new VSUs and one request for expansion has been 
approved. The other is under review.
    In closing, the Department of State is at the forefront of 
interagency cooperation and data sharing to improve border 
security. We understand the critical importance of our work. We 
have talented personnel and necessary tools to maintain safe 
borders that welcome the vast majority of legitimate travelers.
    I am pleased to take your questions.
    [The statement of Mr. Donahue follows:]
                 Prepared Statement of David T. Donahue
                             March 11, 2010
    Chairman Cuellar, Ranking Member Souder, and distinguished Members 
of the subcommittee, thank you for the opportunity to address you 
today. As a result of the attempted terrorist attack on Flight 253, the 
President ordered corrective steps to address systemic failures in 
procedures we use to protect the people of the United States. 
Therefore, the Department of State now is working on reviewing visa 
issuance and revocation criteria and determining how technological and 
other enhancements can facilitate and strengthen visa-related business 
processes.
    As I have briefed the Members of the full committee on January 13, 
2010, and as Under Secretary for Management Kennedy testified before 
the Senate Judiciary Committee on January 27, 2010, our immediate 
attention is focused on remedying shortcomings identified following the 
attempted attack on Flight 253. Planning for the future, incorporating 
new technology, increasing data sharing, and enhancing operational 
cooperation with partner agencies all contribute to a dynamic and 
robust visa adjudication process. We constantly review our IT systems 
and our procedures to adapt and improve our processes to respond to 
changing times, security threats and to incorporate new tools available 
to us. We have a highly trained global team working daily to protect 
our borders and fulfill the overseas border security mission and other 
critical tasks ranging from crisis management to protection of American 
interests abroad. Within the Department, we have a dynamic partnership 
between the Bureau of Consular Affairs and the Bureau of Diplomatic 
Security that adds a valuable law enforcement and investigative 
component to our capabilities. We use these strengths to address the 
continuing and evolving security threats.
    In the case of Umar Farouk Abdulmutallab, on the day following his 
father's November 19, 2009 visit to the Embassy, we sent a cable to the 
Washington intelligence and law enforcement community through the Visas 
Viper system that ``Information at post suggests [that Abdulmutallab] 
may be involved in Yemeni-based extremists.'' At the same time, the 
Consular Section entered Abdulmutallab into the Consular Lookout and 
Support System database known as CLASS, against which all visa 
applications are screened. In sending the Visas Viper cable and 
checking State Department records to determine whether Abdulmutallab 
had a visa, Embassy officials misspelled his name, but entered it 
correctly into CLASS. As a result of the misspelling in the cable, 
information about previous visas issued to him and the fact that he 
held a valid U.S. visa at that time, was not included in the cable. The 
CLASS entry using the correct spelling resulted in a lookout that was 
shared automatically with the primary lookout system used by the 
Department of Homeland Security (DHS) and accessible to other partner 
agencies. DHS has noted that, as a result of that record, they planned 
to meet Abdulmutallab and question him upon arrival.
     We took immediate action to improve the procedures and content 
requirements for Visas Viper cable reporting that will call attention 
to the visa application and issuance information that is already part 
of the data that we share with our National security partners. All 
officers have been instructed to include complete information about all 
previous and current U.S. visa(s) when a Visas Viper cable is sent. 
This instruction includes guidance on specific methods to 
comprehensively and intensively search the database of visa records by 
conducting a wide-parameter, ``fuzzy search,'' leveraging an existing 
search capability called ``Person Finder,'' when searching our 
comprehensive repository of visa records in the Consular Consolidated 
Database (CCD). Searches conducted in this manner will identify visa 
records despite variations in the spelling of names as well as in dates 
of birth, places of birth, and nationality information.
    In addition to this change in standard procedures on searching visa 
records, we immediately began working to refine the capability of our 
current systems. For visa applications, we employ strong, sophisticated 
name searching algorithms to ensure matches between names of visa 
applicants and any derogatory information contained in the 27 million 
records found in CLASS. This strong searching capability has been 
central to our procedures since automated lookout system checks were 
mandated following the 1993 World Trade Center bombing. We use our 
significant and evolving experience with search mechanisms for 
derogatory information to constantly improve the systems for checking 
our visa issuance records.
    The Department of State has been matching new threat information 
with our records of existing visas since 2002. We have long recognized 
this function as critical to the way we manage our records and 
processes. This system of continual vetting has evolved as post-9/11 
reforms were instituted and is now performed by the Terrorist Screening 
Center (TSC). All records added to the Terrorist Screening Database are 
checked against the Department's Consolidated Consular Database (CCD) 
to determine if there are matching visa records. Matches are sent 
electronically from the TSC to the Department of State to flag cases 
for possible visa revocation. In addition, we have widely disseminated 
our data to other agencies that may wish to learn whether a subject of 
interest has a U.S. visa. Cases for revocation consideration are 
forwarded to us by our consular offices overseas, our domestic visa 
office, DHS/Customs and Border Protection's (CBP) National Targeting 
Center (NTC), and other entities. Almost every day, we receive requests 
to review and, if warranted, revoke visas for potential travelers for 
whom new derogatory information has been discovered since the visa was 
issued. Our Operations Center is staffed 24 hours per day/7 days per 
week to address urgent requests, such as when the person is about to 
board a plane. I frequently use the State Department's authority to 
prudentially revoke the visa and prevent boarding.
    Since the Presidentially-ordered Security Review, there have been 
exigent changes in the thresholds for adding individuals to the 
Terrorist Screening Database, No-Fly, and Selectee lists. The number of 
revocations has increased substantially as a result. As soon as 
information is established to support a revocation, an entry showing 
the visa revocation is added electronically to the Department of 
State's CLASS lookout system and shared in real time with the DHS 
lookout systems used for border screening.
    The State Department has broad and flexible authority to revoke 
visas and we use that authority widely to protect our borders. Since 
2001, we have revoked more than 57,000 visas for a variety of reasons, 
including over 2,800 for suspected links to terrorism.
    We have been actively using this revocation authority as we perform 
internal reviews of our data against watch list information provided by 
partner agencies. For example, we are re-examining information in our 
CLASS database regarding individuals with potential connections to 
terrorist activity or support for such activity. We are reviewing all 
previous Visas Viper submissions and cases that other agencies are 
bringing to our attention from the No-Fly and Selectee lists, as well 
as other sources. In these reviews, we identified cases for revocation 
and we also confirmed that substantial numbers of individuals in these 
classes hold no visas and of those few who did, a great many were 
revoked prior to the current review. We recognize the gravity of the 
threat we face and are working intensely with our colleagues from other 
agencies with the desired goal that when the U.S. Government obtains 
information, no person who may pose a threat to our security, holds a 
valid visa.
    Because individuals change over time and people who once posed no 
threat to the United States can become threats, revocation is an 
important tool in our border security arsenal; we use our authority to 
immediately revoke a visa in circumstances where we believe there is an 
immediate threat. At the same time, we believe consultation with 
National security partners is critical. Expeditious coordination with 
our National security partners is not to be underestimated. Unilateral 
and uncoordinated revocation could disrupt important investigations 
undertaken by one of our National security partners.
    Finally, the Department is reviewing the procedures and criteria 
used in the field to revoke visas and will issue new instructions to 
our officers. Revocation recommendations will be added as an element of 
reporting through the Visas Viper channel. We are in the process of 
providing additional guidance to the field on use of the broad 
authority of visa officers to deny visas on security and other grounds. 
Instruction in appropriate use of this authority has already been a 
fundamental part of officer training for years.
    Beyond revocations, the Department of State is at the forefront of 
interagency cooperation and data sharing to improve border security, 
and we have embarked on initiatives that will position us to meet 
future challenges while taking into consideration our partner agencies 
and their specific needs and requirements. We are implementing a new 
generation of visa processing systems that will further integrate 
information gathered from domestic and overseas activities. We are 
restructuring our information technology architecture to accommodate 
the unprecedented scale of information we collect and to keep us agile 
and adaptable in an age of intensive and growing requirements for data 
collection, processing, and sharing.
    We are the first line of defense in border security. Our global 
presence, foreign policy mission, and personnel structure give us 
singular advantages in executing the visa function throughout the 
world. Our authorities and responsibilities enable us to provide a 
global perspective to the visa process and its impact on U.S. National 
interests. The issuance and refusal of visas has a direct impact on our 
foreign relations. Visa policy quickly can become a significant 
bilateral problem that harms broader U.S. interests if handled without 
consideration for foreign policy impacts. The conduct of U.S. visa 
policy has a direct and significant impact on the treatment of U.S. 
citizens abroad. The Department of State is in a position to anticipate 
and weigh all those factors. Remember, the vast majority of the more 
than 2 million visas denied last year were denied for reasons unrelated 
to terrorism. Let me reiterate, however, that the Department of State 
is fully committed to protecting our borders and has no higher priority 
than the safety of our fellow citizens and the legitimate foreign 
visitors who contribute so much to our economy and society.
    The State Department has developed and implemented intensive 
screening processes requiring personal interviews, employing analytic 
interview techniques, incorporating multiple biometric checks, all 
built around a sophisticated global information technology network. We 
have visa offices present in virtually every country of the world, 
staffed by consular officers drawn from the Department's professional, 
and mobile multilingual Foreign Service Officer workforce. These 
officials are dedicated to a career of worldwide service, and they 
provide the cultural awareness, knowledge, and objectivity to ensure 
that the visa function remains the frontline of border security. Each 
officer's experience and individual skill-set contribute to an overall 
understanding of the political, legal, economic, and cultural 
development of foreign countries in a way that gives the Department of 
State a special expertise over matters directly relevant to the full 
range of visa ineligibilities.
    Consular officers are trained to take all necessary steps to 
protect the United States and its citizens during the course of making 
a decision on a visa application. Each consular officer is required to 
complete the Department's Basic Consular Course at the National Foreign 
Affairs Training Center prior to performing consular duties. The course 
places strong emphasis on border security, featuring in-depth 
interviewing and name-checking technique training, as well as fraud 
prevention. Consular officers receive continuing education, including 
courses in analytic interviewing, fraud prevention, and advanced 
security name-checking.
    Consular officers refused 2,181,986 nonimmigrant and immigrant 
visas in fiscal year 2009 out of 8,454,936 applications. We now are 
renewing guidance to our officers on their authority to refuse visas 
with specific reference to cases that raise security concerns. No visa 
is issued without it being run through security checks against our 
interagency law enforcement and intelligence partners' data. And we 
screen applicants' fingerprints against U.S. databases as well. The 
results of these checks by consular officers and any fraud indicators 
are brought to the attention of VSU officers wherever they are posted 
abroad.
    In addition, the Department of State's Security Advisory Opinion 
(SAO) mechanism provides officers with the necessary advice and 
background information to adjudicate these cases of visa applicants 
with possible terrorism ineligibilities. Consular officers receive 
extensive training on the SAO process, including namechecking courses 
that assist in identifying applicants requiring additional Washington 
vetting. The SAO process requires the consular officer to suspend visa 
processing pending interagency review of the case and additional 
guidance. Most SAOs are triggered by clear and objective circumstances, 
such as nationality, place of birth, residence, or visa name check 
results. In addition, in cases where reasonable grounds exist, 
regardless of name check results, to suspect that an applicant may be 
inadmissible under the security provisions of the Immigration and 
Nationality Act, consular officers suspend processing and institute SAO 
procedures.
    CLASS, our primary visa screening watch list, has grown more than 
400 percent since 2001--largely the result of this improved exchange of 
data among State, law enforcement, and intelligence communities. Almost 
70 percent of CLASS records come from other agencies. We have enhanced 
our automatic check of CLASS entries against the CCD as part of our on-
going process of technology enhancements aimed at optimizing the use of 
our systems to detect and respond to derogatory information regarding 
visa applicants and visa bearers. We are accelerating distribution to 
posts of an upgraded version of the automated search algorithm that 
runs the names of new visa applicants against the CCD to check for any 
prior visa records. This enhanced capacity is available currently at 83 
overseas posts, with the rest to follow soon.
    We are deploying an enhanced and expanded electronic visa 
application form, which will provide more information to adjudicating 
officers and facilitate our ability to detect fraud. Officers have 
access to more data and tools than ever before, and we are evaluating 
cutting-edge technology to further improve our efficiencies and 
safeguard the visa process from exploitation. We are working with our 
interagency partners on the development and pilot-testing of a new, 
intelligence-based SAO system that will make full use of the additional 
application data.
    The Department of State has a close and productive partnership with 
DHS, which has authority for visa policy under Section 428 of the 
Homeland Security Act. Over the past 7 years both agencies 
significantly increased resources, improved procedures, and upgraded 
systems devoted to supporting the visa function. DHS receives all of 
the information collected by the Department of State during the visa 
process. DHS's US-VISIT is often cited as a model in data-sharing 
because the information we share on applicants, including fingerprint 
data, is checked at ports of entry to confirm the identity of 
travelers. DHS has broad access to our entire CCD, containing 136 
million records related to both immigrant and nonimmigrant visas and 
covering visa actions of the last 13 years. Special extracts of data 
are supplied to elements within DHS, including the Visa Security Units 
of Immigration and Customs Enforcement (ICE). These extracts have been 
tailored to the specific requirements of those units.
    We are working closely with ICE Visa Security Units (VSUs) 
established abroad and with domestically-based operational units of 
DHS, such as CBP's National Targeting Center. VSUs currently operate at 
14 visa adjudicating posts in 12 countries. Since January 19, 2010, we 
have received requests from DHS's component, Immigration and Customs 
Enforcement, to open four additional VSUs and to augment staff at two 
existing VSUs. The Chiefs of Mission have approved the four new VSUs 
and one request for expansion; the other request for expansion is under 
review.
    We make all of our visa information available to other involved 
agencies, and we specifically designed our systems to facilitate 
comprehensive data sharing. We give other agencies immediate access to 
over 13 years of visa data, and they use this access extensively. In 
February 2010 alone, more than 18,000 employees of DHS, the Department 
of Defense (DOD), the Federal Bureau of Investigation (FBI), and the 
Department of Commerce made just over 1 million queries on visa 
records. We embrace a layered approach to security screening and are 
fully supportive of the DHS Visa Security Program.
    Working in concert with DHS, we proactively expanded biometric 
screening programs and integrated this expansion into existing overseas 
facilities. In partnership with DHS and the Federal Bureau of 
Investigation (FBI), we established the largest biometric screening 
process on the globe. We were a pioneer in the use of facial 
recognition techniques and remain a leader in operational use of this 
technology. In 2009, we expanded use of facial recognition from a 
selected segment of visa applications to all visa applications. We now 
are expanding our use of this technology beyond visa records. We are 
testing use of iris recognition technology in visa screening, making 
use of both identity and derogatory information collected by DOD. These 
efforts require intense on-going cooperation from other agencies. We 
successfully forged and continue to foster partnerships that recognize 
the need to supply accurate and speedy screening in a 24/7 global 
environment. As we implement process and policy changes, we are always 
striving to add value in both border security and in operational 
results. Both dimensions are important in supporting the visa process.
    In addition, we have 145 officers and 540 locally employed staff 
devoted specifically to fraud prevention and document security, 
including fraud prevention officers at overseas posts. We have a large 
Fraud Prevention Programs office in Washington, DC, that works very 
closely with the Bureau of Diplomatic Security, and we have fraud 
screening operations using sophisticated database checks at both the 
Kentucky Consular Center and the National Visa Center in Portsmouth, 
New Hampshire. Their role in flagging applications and applicants who 
lack credibility, who present fraudulent documents, or who give us 
false information adds a valuable dimension to our visa process.
    The Bureau of Diplomatic Security adds an important law enforcement 
element to the Department's visa procedures. There are currently 75 
Assistant Regional Security Officer Investigator (ARSOIs) positions 
approved for 73 consular sections overseas specifically devoted to 
maintaining the integrity of the process. This year, the Bureau of 
Diplomatic Security has approved 48 additional ARSOI positions to work 
in consular sections overseas. They are complemented by officers 
working domestically on both visa and passport fraud criminal 
investigations and analysis. These highly trained law enforcement 
professionals add another dimension to our border security efforts.
    The multi-agency team effort on border security, based upon broadly 
shared information, provides a solid foundation. At the same time we 
remain fully committed to correcting mistakes and remedying 
deficiencies that inhibit the full and timely sharing of information. 
We have and we will continue to automate processes to reduce the 
possibility of human error. We fully recognize that we were not perfect 
in our reporting in connection with the attempted terrorist attack on 
Flight 253. We are working and will continue to work not only to 
address that mistake but to continually enhance our border security 
screening capabilities and the contributions we make to the interagency 
effort.
    We believe that U.S. interests in legitimate travel, trade 
promotion, and educational exchange are not in conflict with our border 
security agenda and, in fact, further that agenda in the long term. Our 
long-term interests are served by continuing the flow of commerce and 
ideas that are the foundations of prosperity and security. Acquainting 
people with American culture and perspectives remains the surest way to 
reduce misperceptions about the United States. Fostering academic and 
professional exchange keeps our universities and research institutions 
at the forefront of scientific and technological change. We believe the 
United States must meet both goals to guarantee our long-term security.
    We are facing an evolving threat. The people and the tools we use 
to address this threat must be sophisticated and agile and must take 
into account the cultural and political environment in which threats 
arise. The people must be well-trained, motivated, and knowledgeable. 
Information obtained from these tools must be comprehensive and 
accurate. Our criteria for taking action must be clear and coordinated. 
The team we use for this mission must be the best. The Department of 
State has spent years developing the tools and personnel needed to 
properly execute the visa function overseas and remains fully committed 
to continuing to fulfill its essential role on the border security 
team.

    Mr. Cuellar. I want to thank you very much.
    Again, I want to thank all the witnesses for being here 
with us.
    I remind Members that we have 5 minutes of questions per 
witness--for the witnesses, should I say, and I will recognize 
myself for 5 minutes.
    Since it is only you and I, Mr. Souder, we are going to 
probably stretch that a little bit and be a little bit more 
flexible.
    But let me first--let me just start off with some procedure 
work first. Deadlines. The only thing is, as I mentioned, I 
would ask you all and your Congressional liaison folks that 
when we ask for testimony there are certain time tables. I 
understand you all were looking at each other's testimony and 
got a little delayed.
    But I would ask you to just make sure that if you are going 
to be late, I would just ask, please, you know, talk to our 
committee. Just give us a little advance notice that it is 
going to be late, and would ask you to just do that just as a 
housecleaning procedure.
    For the State Department, how would you rate your 
Department's ability to communicate with ICE?
    Then, ICE, I will ask you the same thing.
    I know that there was--a particular situation got denied, 
and then of course, now they got approved. But how would you 
rate your ability to work together, Mr. Donahue?
    Mr. Donahue. Thank you for the question, Mr. Chairman. I 
can't imagine that there are two U.S. Government agencies that 
work more closely than the Department of Homeland Security and 
the Department of State, particularly in border issues.
    We were just talking during the recess that if we put 
together the number of times that we have been together and 
that different people in my office have been with people in the 
other offices, both in ICE and the Department of Homeland 
Security, just in the last couple months it would probably be 
in the hundreds, if not more.
    In addition, on the ICE VSU program, we have assigned 
senior officers to that program since the beginning who travel 
with the members of the ICE team in site review. We do the same 
on visa waiver expansion.
    So we have a very close relationship, meeting many times 
during the week, usually.
    Mr. Cuellar. Okay.
    Mr. Parmer.
    Mr. Parmer. Thank you, Mr. Chairman. I would characterize 
it similarly as my colleague from State Department. I think 
when the Homeland Security Act of 2002 mandated the creation of 
the Visa Security Units, there was some skepticism, perhaps, at 
various levels in the State Department.
    But in every location where--and I visited several of these 
locations--where we have the Visa Security Units, without 
exception, the naysayers have been overcome and feel that our 
programs are complementary and serve as force multipliers.
    Mr. Cuellar. Okay.
    Now, let me ask you--using the example of the Flight 253, 
I--and I listened to the three witnesses give us the 
testimony--can you just give me a little checklist of what we 
did and what we are doing now that is different, improved?
    If you can break down into different steps, using the 
example of 253, what we are doing now that is different, that 
has improved, so we can provide better security?
    Let's start with the State Department, because remember, 
where the individual started off, and there were calls to the 
embassy--let's go step by step as to--and then any time, Mr. 
Parmer, you want to come in, or somebody wants to come in--this 
is something that we are doing differently, because I am--we 
got lucky.
    You know, we will--you know, we say we got lucky. I am now 
interested in looking forward. What are we doing to provide 
better security?
    Mr. Donahue. Thank you, Mr. Chairman. I think the first 
thing is that we have sent out to our posts--and we know that 
there was a problem with the spelling and the search engine 
that was used by the officer to check to see whether the 
traveler had prior visas.
    We have sent out new information about a much more robust 
search engine and instructions on the importance of getting 
that information into the Visa Viper cable and other 
information that they should put in the Visa Viper cable, so 
that when that arrives at the interagency community people have 
a little--a lot more to go on to determine whether they need to 
do more investigation on that.
    We are going out to our posts--we have already had a good 
response to this on the Visa Viper reporting, where posts are 
coming in, they are telling us a lot.
    We start right away, as soon as we receive that Visa Viper 
cable, discussing that traveler with our partners, particularly 
with the TSC, the Terrorist Screening Center, to determine that 
we are--to deconflict any possible conflicts with people they 
are watching. Then we revoke very quickly.
    I think those are the--probably the two most important 
things in--and the other part is we have been spending a lot of 
time with our interagency partners in ensuring that the watch 
lists are as effective as they can be.
    Mr. Cuellar. Okay. All right.
    Mr. Parmer.
    Mr. Parmer. Mr. Chairman----
    Mr. Cuellar. Again, just like Mr. Donahue, just give us the 
checklist as to what we are doing now differently.
    Mr. Parmer. That is a difficult question to answer, because 
the Visa Security Units have always maintained a high level of 
scrutiny for the--working in concert with the----
    Mr. Cuellar. But let's use----
    Mr. Parmer [continuing]. State Department.
    Mr. Cuellar [continuing]. Let's lose--I am sorry, let's use 
the 253 as an example.
    Mr. Parmer. What we have done since then is re-prioritize, 
that we have a list of high-profile posts at which we would 
like to open Visa Security Units. We have re-prioritized that 
list in light of some of the intelligence that has come out of 
the Christmas day incident.
    Assistant Secretary Morton and others are having high-level 
discussions with the State Department about things that we can 
do differently in the future toward not only the screening 
process but also a more rapid deployment for the Visa Security 
Units.
    Mr. Cuellar. Mr. Winkowski.
    Mr. Winkowski. Mr. Chairman, at CBP we have done several 
major issues that I think are very, very significant, and let 
me kind of take this in bites as you asked.
    At our IAP locations, the nine IAP locations, prior to 12/
25, our 29 officers out there were getting--from a terrorist-
related standpoint were getting notification on their hot list 
that we showed you down at the NTC. They were getting 
individuals from the no-fly and the terrorist screening 
database on the terrorist-related side.
    Then on the admissibility-related side, the ESTA denials, 
the visa revocation, lost or stolen passports, and the public 
health notifications, so that was prior to the Christmas 
incident.
    Since then, we have grown the hot list--continue, of 
course, to get the no-fly. But we have also included the 
selectees, those individuals that are selected for enhanced 
inspection as part of the TSA program.
    I wanted to make sure that as those individuals went 
through the selectee process that is conducted by security 
overseas that our IAP officers know that we have an individual 
going on that flight that was a selectee, so we can focus in 
and ask perhaps additional questions.
    The other thing that we did was the SO-7 report that we 
referred to----
    Mr. Cuellar. Right.
    Mr. Winkowski [continuing]. A few weeks ago. That 
particular report was only sent to the port of entry 
domestically. It was not sent to the IAP locations.
    A decision had been made early on in the program back in 
2004, 2005 when we stood up the Immigration Advisory Program 
that we were very concerned that we could overwhelm the small 
number of officers that we have over in those locations.
    So we wanted to make sure they got--you know, that the hot 
issues from the standpoint of the no-flys and the TSDB hits and 
the public health alerts--and the decision was made not to give 
them those particular reports.
    I have changed that. All IAP locations now get that report. 
In this particular case, it was sent from State Department. Of 
course, we continue to have the ESTA denials, the visa 
revocations, the loss or stolen passports, and the public 
health. So that is the IAP piece.
    The other major change that we made was as I was looking at 
the gaps and as you--as we talked--opportunities like this, you 
look at gaps. You look at, you know: What went wrong, what do 
we need to do better, where else are we vulnerable?
    We have in those non-IAP locations we don't have any 
offices there, so you have individuals that perhaps had a visa 
that was revoked, would still get on that airplane and fly 
domestically--fly to the United States, and we would deal with 
that admissibility issue in the States.
    What we have done is we had a unit called the Regional 
Carrier Liaison Group that you referred to in your opening 
comments and that I have referred to here, located in Miami, 
New York, and in Honolulu. That unit was stood up a number of 
years ago to really reach out to the airlines and work with the 
airlines on individuals with fraudulent documentation.
    Recently down in Miami we have that group well entrenched 
for a number of years, and what we did was we took what were 
concerned with the IAP locations and overlaid it over into the 
Regional Carrier Liaison Group, so what we have is virtually a 
virtual net over the entire world from a standpoint of the 
Regional Carrier Liaison Group.
    So what happens is when these--when an individual hits 
against our PNR or our APIS, and they are not at an IAP 
location, what happens is the National Targeting Center gets it 
on their hot list, calls the applicable Regional Carrier 
Liaison Group, who then notifies the airline overseas and tells 
the airlines that we have an individual, give them the name, 
that their visa had been revoked or there is an issue with 
them, and that we are recommending a no board.
    We have 100 percent cooperation from all of the airlines on 
that. We are very, very good partners with them. So as a result 
of 
12/25, not only did we enhance what we were doing at the IAP 
locations, we took it a step further and addressed the non-IAP 
locations as well.
    The other thing that we have done is the hot list. It 
became apparent to me that, you know, we put the hot list out, 
and we really haven't--we really were not out there challenging 
that hot list. Do we have everything on that list that those 
officers need? I have implemented that procedure.
    The other thing that we have done is all of these 
individuals that are on the hot list, referred over on the hot 
list, whether it is the IAP locations or the non-IAP locations, 
we have a FAM that is assigned to the National Targeting 
Center, and they are given that information on every single 
flight of individuals that are on our hot list.
    So there is awareness if a FAM is going to be boarding that 
particular aircraft so he or she knows who is on that aircraft 
from a standpoint of any type of security issues.
    Mr. Cuellar. Okay.
    Mr. Winkowski. That is what we have done.
    Mr. Cuellar. Mr. Winkowski, let me just--I don't want to 
complicate this, because we have been talking about airports, 
and some of those lists are for the airlines, but as you know, 
88 percent of the goods and services come through land ports, 
roughly.
    Are we doing any additional screening for our land ports? 
That is where--I mean, that is basically where most of our 
people will be coming in. I know some of those lists are--I 
understand that. But anything else extra that we are doing?
    Mr. Winkowski. Well, on the land border side, of course, we 
have implemented the Western Hemisphere Travel Initiative, with 
standardized documents, which as--you know, as you mentioned, 
you know, we have job and field operations of balancing 
preventing dangerous people and dangerous things from coming 
into the country, but at the same time expediting legitimate 
trade and travel.
    So certainly, I think the Western Hemisphere Travel 
Initiative has helped us standardize documents, and what we are 
seeing over time here is we have a very, very high compliance 
rate down on the southwest border, for example. We are about 92 
percent compliant.
    We have moving much quicker towards getting the RFID 
readable documents that the individuals can have--for example, 
State Department is reissuing the border crossing cards. There 
is 10 million border crossing cards. They are coming up. They 
are expiring. The State Department is reissuing them with the 
RFID chip.
    So you have got that piece. We have a targeting piece. We 
have an automated targeting system for land. It is a robust 
system, but you don't get that pre-departure information on the 
vehicle side, that we deal--we don't have advance information 
on who is coming into the United States on the land border 
side.
    We have it on the cargo side, but we don't have it on the--
on the people side, and I think that is something that we need 
to work towards, and I will make a suggestion on that in a 
moment.
    So you know, we have got targeting units. Our query rates 
are much higher than they have ever been. Not so many years 
ago, because of infrastructure problems and because of a lack 
of the right technology, i.e. the WHTI solution, we had a 
relatively low query rate.
    We have grown that tremendously. On the southwest border we 
are over 70 percent query rates, and our goal is to be at 100 
by the end of this fiscal year. So we have that layered 
approach in there. WHTI has been extremely helpful to us and 
certainly appreciate what Congress has done to give us a steady 
stream of funding for WHTI.
    But I do think it is time from a standpoint of looking at 
kind of an all modes APIS, advanced information all modes, 
because we do have ferries out there that don't have any 
advance information. Trains are voluntary. Buses--and----
    Mr. Cuellar. Right.
    Mr. Winkowski [continuing]. Certainly, I don't need to 
explain to you buses coming into Laredo. It is the busiest bus 
location. We need to work towards a solution of getting advance 
information for those bus travelers.
    Mr. Cuellar. Right, and I think working with Mr. Souder and 
Mr. Thompson and the other Members and our staff, that is an 
issue that we want to talk about at a later time, because, like 
you mentioned, there are other modes of transportation in the 
United States that have no advance notice.
    Mr. Winkowski. Right.
    Mr. Cuellar. If somebody gets smart out there, all they 
have to do is look at the other modes of transportation and 
again, keeping in mind, 88 percent of all the goods--people 
coming into the United States are coming through land ports, 
and I know the focus--because of Flight 253 and this is why we 
are here.
    Let me just finish one thought, and I am--if the Ranking 
Member will indulge me on this, and then I will give him all 
the flexibility he needs to get.
    So we talked about the protocols were in place for Flight 
253. We talked about that you just gave me a little summary of 
the new protocols that you all added.
    Using the new protocols, the new changes, using the 
individual from Flight 253 that happened last year, under the 
new protocols, where would you have picked up this individual?
    Mr. Winkowski. What would have happened with the new 
protocols--he would have hit against the SO-7 report, the State 
Department report, and the quasi visa refusal.
    That report would have been--that record would have been 
placed on the hot list for the IAP in Amsterdam. What would 
have happened is the IAP officer would have taken the 
individual and begun the process of questioning him.
    Mr. Cuellar. Right. Now, what I understand--he was only 
interviewed by CBP when he landed in Detroit.
    Mr. Winkowski. That is correct.
    Mr. Cuellar. How would this have changed under the new 
protocols?
    Mr. Winkowski. Well, it would have been placed on his hot 
list. Prior to 12/25, the SO-7 report was not put on the hot 
list. It was viewed as an admissibility issue that--which we 
could handle State-side, because there is a series of Q&As that 
you have to do with the individual and IAP is not designed for 
that.
    What we have done is for those terrorist exclusion codes 
for the SO-7--they are on the--now the hot list, so that would 
have come up through ether the PNR or the APIS.
    Mr. Cuellar. Right.
    Mr. Winkowski. Our officers in Amsterdam would have 
notified. We would have gotten the passenger and questioned him 
in Amsterdam.
    Mr. Cuellar. Okay, good.
    Mr. Donahue and then Mr. Parmer, same question. Under your 
new protocols, new changes, using the example of the individual 
on Flight 253, where would you have stopped this individual 
from your perspective?
    Mr. Parmer, same question.
    Mr. Donahue. Thank you very much, Mr. Chairman. I think 
today two things would have happened. First of all, the officer 
in Nigeria would have known that the traveler had a visa 
because they would have been using a more robust search engine.
    They would have reported that in the Visa Viper cable, and 
also we would have their entry in a--as a P3B with the entry 
that my colleague just referred to.
    Both of those--we are doing constant review of our lists. 
Any time we get a Visa Viper in, we look at that case very 
seriously.
    A case like this I think we would have--you know, it is 
hard to predict, but I think we would have decided to revoke 
the visa, ask him to come back in to interview, so he wouldn't 
have had a visa and wouldn't have--wouldn't have traveled at 
all.
    Mr. Cuellar. Okay. So you feel under the new protocols you 
would have--using that as an example, you would have stopped 
him before he boarded.
    Mr. Donahue. For example, there are no--no one with this 
code, this P3B code--there is no one in our records with a P3B 
code right now who has a visa.
    Mr. Cuellar. Okay.
    Mr. Parmer, same question. New protocols, how would this 
have been different for that individual?
    Mr. Parmer. Chairman, it would purely be speculative on my 
part to----
    Mr. Cuellar. We understand. But under the new protocols----
    Mr. Parmer. Well, there are no--from the perspective of the 
Visa Security Units, there are no different protocols. We were 
not in the post where the visa was issued, so it would be, 
again, purely speculative for me to comment on that.
    Mr. Cuellar. Okay, fair enough.
    All right, Mr. Souder, thank you for your indulgence, and 
you have got 15 minutes of questioning.
    Mr. Souder. Basically, it is the same thrust continued.
    So, Mr. Parmer, are you in Nigeria now?
    Mr. Parmer. No, sir.
    Mr. Souder. Did you apply to go to Nigeria now? It is one 
of the more risky countries we have been seeing a lot in the 
news.
    Mr. Parmer. Yes, sir, it is on the list of countries that 
we would like to establish a post in. I referenced earlier re-
prioritization of the--of our high-risk list that we have 
worked on collaboratively with the State Department, and it 
is----
    Mr. Souder. Is it a funding question?
    Mr. Parmer [continuing]. Higher on the list. No, sir, it is 
not.
    Mr. Souder. If it gets re-prioritized to go up, does one 
get bumped off where you had requested?
    Mr. Parmer. Not of those currently pending, or the--of the 
NSDD-38s that were just approved, no, sir.
    Mr. Souder. So you can add--there is no problem with adding 
countries? I am trying to figure out why it isn't there. You 
said that it--you are re-prioritizing to move it up higher.
    Does that mean you didn't request it before, or it was 
below the funding cut for it before? I am trying to figure out 
what is the problem here. Is it a funding question?
    Is it a staffing question, which when--then would probably 
be a funding question? Is it an embassy personnel? Is the State 
Department saying, ``We can only absorb so many in a given 
year?''
    Mr. Parmer. No, sir. No, sir. Before the Detroit incident, 
it was not ranked as highly on the list. We have been working 
under a 5-year expansion plan that was approved by the Homeland 
Security Council, and it is--with the infrastructure and the 
budget that we have in place, we have been seeking expansion 
that we were able to support.
    So it hasn't been a funding issue or a State Department 
issue. It was just not as high on the list.
    Mr. Souder. So Congress mandated that you go to 50, and how 
many are you now, 10, adding four?
    Mr. Parmer. We are in 12 countries at 14 locations.
    Mr. Souder. So since it is a mandate, why haven't you 
requested to move faster? I am trying to figure out what is the 
holdup.
    Mr. Parmer. The best way to put that, again, is I will 
refer back to the expansion plan that was approved by the 
Homeland Security Council that--where we were moving forward at 
a rate that our infrastructure could support and as well as the 
budget----
    Mr. Souder. By the infrastructure, you mean number of 
agents? Is this a computer question? It is not a computer 
question.
    Mr. Parmer. No, sir.
    Mr. Souder. It is not infrastructure that way. It is 
personnel?
    Mr. Parmer. Our headquarters component, our administrative 
function, as well as the--what we could support through 
deployment of personnel.
    It is too cumbersome to try to deploy that many people in a 
short period of time, and it was something that we could--our 
agency could comfortably----
    Mr. Souder. Could you----
    Mr. Parmer [continuing]. Move forward with and responsibly 
move forward with.
    Mr. Souder. Could you get back to me with the particulars 
of what is so cumbersome about this? I am trying to--is it that 
you have to divert so many agents from other tasks to go there?
    Is it that, quite frankly, it takes a long time to do the 
research, you don't have enough research personnel? I am trying 
to figure out what it is, because we said 50.
    The irony here is--in this discussion is that I remember 
when I was over at the Government Reform Committee, and we 
first debated whether homeland security was going to go in 
there.
    Initially, we were going to take the entire--and I worked 
with Chairman Ben Gilman at the time--take the entire security 
process away from the State Department. We worked out a 
compromise because you were supposed to be in all high-risk 
countries immediately after 9/11. This was a negotiated deal.
    Because partly, visa clearance and that process is a key 
part of the State Department entry level training program. They 
had language background. When you actually got into it, it was 
better to work a cooperative process.
    Now what I am finding--it has been a little while since 9/
11, and we are in 2012, and you are resource-challenged, and I 
am just trying to figure out where it is. Did Congress turn it 
down? Did you not make a request? Are you being blocked from 
the request from OMB, which would be typical in many agencies? 
We understand that.
    But the bottom line is that--and also I am a little 
perplexed why Nigeria wasn't there, but that is another 
question.
    Now let me move to another aspect of the--kind of the same 
line of questioning. I was listening with interest as to what 
is changed, because that is one of the fundamentals, and first, 
if I could start with Mr. Donahue--well, let me ask Mr. 
Winkowski--good to see you.
    One of the challenges here of anybody watching is that they 
think there is just like all these initials wandering around at 
every airport and port of entry. That was one of the most 
amazing performances of numbers of--it would have taken your 
testimony twice as long as if you would have spelled out all 
what those initials were of the different programs.
    But in the challenge of--my understanding is CBP had the 
name right. It wasn't a spelling question for CBP and ICE, 
correct?
    Mr. Winkowski. That is correct, yes.
    Mr. Souder. But you felt that the information wasn't 
actionable enough prior to getting on the plane, that it had to 
be done in Detroit.
    Mr. Winkowski. Yeah, a decision had been made when we stood 
up the IAPs back in 2004 that those kinds of reports, the quasi 
visa refusals--his visa was not canceled--could be handled 
State-side rather than at the IAP location, okay, because what 
we are concerned with is the program is very small, and we 
wanted the individuals assigned to the IAP locations to be 
focusing in what was on the hot list, and at that time these 
reports were not on there.
    So Detroit got the report, and that was what was supposed 
to happen. The IAP location did not get that report.
    Mr. Souder. Okay. Now, one of the confusing things for me, 
just trying to sort through--Mr. Donahue, you have suggested 
that probably, had you spelled it right and had this 
information, that now this person wouldn't be allowed a visa.
    I am trying to figure out why would it be actionable for 
you to deny an interview and not for CBP, because they 
determined that information--is there a change in what is now 
actionable?
    Mr. Donahue. Thank you for the question. There is. We 
certainly have looked at everything we do, and one thing that I 
think that we did before this incident was we sent in reports.
    I don't know that all of us--I certainly didn't have as 
full an understanding of the entire interagency process for 
determining when a name gets promoted to watch listing.
    We sent in the reports. We waited to see how that name 
would come out. Would it come out as a watch listing name? 
Would it be something that would go into a TIDE file and not be 
promoted?
    We did not review all of the Visa Viper cables for a 
determination of revocation then, although the consular officer 
has the authority to make a recommendation to do an SAO, for 
instance.
    So I think the real change here is that we--as soon as we 
get a Visa Viper cable in now, we are reviewing it ourselves 
also, and if there is information that makes us concerned that 
this person may have connections to terrorism, we are going to 
the interagency, we are saying we would think that we may be--
want to revoke this visa, to have the person come in for an 
interview.
    If there is no objection, we revoke.
    Mr. Souder. One of the somewhat disturbing things that we 
heard--because one of the initial defenses was, ``Well, we get 
family members and people coming in all the time who--who say 
things,'' which is certainly true. There is all kinds of 
quarrels all over the world where people make cases.
    But this person had been a fairly credible source before. 
Are you making those kind of--in our system, do we have some of 
those kind of cuts that we are becoming a little more aware of?
    Mr. Donahue. Well, certainly, everyone is very sensitive to 
this type of reporting now. I also think that the information 
was very thin. It was that he had--as you know, the only 
information the consular officer had was that the son had come 
under the influence of extremists in Yemen.
    That rings lots of bells today and certainly would, I 
think, any of us would revoke at that point.
    Mr. Souder. I mean, did that not suggest something might be 
imminent?
    Mr. Donahue. It is hard to say. It is hard to be in someone 
else's mind. But it could be that something is imminent or that 
the father would like us to use whatever assets we might have 
had in another country to find his son. Looking back, we could 
look at it that way.
    But I think it is hard to reconstruct. I think today we 
certainly see--we have had a lot of threat reporting since 
then. I think that is another item that--to answer the 
Chairman's question, it is another item of things that we are 
doing--is that there is a much more robust review of threat 
assessments and review of this kind of information against 
threat assessments.
    Mr. Souder. Basically, meaning that when we get scared, we 
tilt towards caution and re-interviewing? I mean, that is kind 
of what it sounds like here, because--that we relax. I mean, it 
is not just any individual. I mean, the whole system seems to 
relax, including Congress--relaxes, and then we get scared, and 
then we tilt it.
    It just seems to me we ought to have a pattern that when 
there is doubt you take extra caution.
    Mr. Donahue. That is why we have put in--I think all of us 
have put in new systems. But for ourselves, we get a Visa Viper 
in, we will review that immediately, we will discuss it with 
the interagency and revoke. When we receive a request from NTC 
to revoke, we will review that case and revoke quickly. We 
understand the critical nature of this.
    Mr. Souder. The January 27 hearing, I ask for the number of 
visa revocations per year and the number revoked based on 
terrorism concerns. Do you have that at this point, or what is 
the status of that request?
    Mr. Donahue. Yes, it was in my statement. It was----
    Mr. Souder. Okay. So you have it in the statement with the 
numbers?
    Mr. Donahue. It is in the statement and in the--also the--
yeah, the----
    Mr. Souder. We may have some additional breakdown 
questions, and be interested--because I think it would be 
useful just for the Department and assuming that our regular 
oversight is going to see how that changes.
    Now, obviously, if it changes over time, they are going to 
change their systems, too, so to a degree you are effective, 
you know, that doesn't--just because it goes up or down doesn't 
necessarily prove anything.
    But initially, it will be interesting to see whether, in 
fact, more are revoked or less, or what the patterns are.
    Mr. Donahue. You mean how many we have revoked since----
    Mr. Souder. No, the original January 27 question and then, 
say, if you can continue to track that data----
    Mr. Donahue. Okay.
    Mr. Souder [continuing]. It is likely to----
    Mr. Donahue. We will do that. We----
    Mr. Souder [continuing]. Question.
    Mr. Donahue [continuing]. The number is that we have 
revoked 57,000 since 2001 and 2,800 of those are terrorist-
related. But we will continue to track that number. I think it 
is an important number, too.
    Mr. Souder. Then for Mr. Wiskowski, that--you said--or 
Winkowski. I said ``Wis,'' sorry. Winkowski. In the last part 
you were--in response to his question, you talked about the--
for example, the Staten Island and the Washington ferry systems 
and coming across from Canada where we caught the Millennium 
bomber--the trains and so on--that all challenges--any of those 
come through in a budget request to address it?
    Mr. Winkowski. No. What we are doing is we are beginning 
the process of studying how we ought to go about this. Now, for 
example, buses--I think it is going to be very, very 
challenging, and we have got to find the right solution for us 
as well as the industry.
    So I do not believe any requests came up for budget. We do 
have our WHTI office looking at these different modes and how 
we are going to accomplish that. We just recently, over the 
last year or so, put in eAPIS for general aviation, and it has 
worked out very, very well.
    We have got very, very high compliance. But I think those 
four areas--and I didn't get to say small boats. I think the 
small boats also coming back and forth--getting some type of 
advance information with the technology that is out there 
today--we have done it with general aviation.
    I think we have now got to lean forward here and really--
again, to drill down on what would it take to get advance 
information on those modes.
    Mr. Souder. A problem I have--because I believe that was a 
very sincere answer, but having worked narcotics prior to 9/11 
and continuing to work the border questions, and having been in 
San Diego looking at the small boat question, looking at the 
aircraft question, north and south border, looking at Lake 
Champlain, we knew this was a problem before, like, the last 24 
months.
    Why are we just starting to develop the solutions now?
    Mr. Winkowski. Well, we have put in different boating--for 
example, small----
    Mr. Souder. Yes.
    Mr. Winkowski [continuing]. Boats--and I think we both 
would agree it is a--it is a----
    Mr. Souder. Incredibly challenging.
    Mr. Winkowski. Incredibly challenging, and----
    Mr. Souder. The Great Lakes, with all the islands.
    Mr. Winkowski [continuing]. And we have got small boat 
strategies in there, and we have got the Air Marine working 
at--looking at northern border strategies from a standpoint of 
how to handle it with the Coast Guard and really, the Coast 
Guard is the lead on--in a lot of this area.
    But you know, quite frankly, you know, we spend a lot of 
our time on containers, dealing with containerized cargo, 
whether it is the challenges we have there, with 100 percent 
scanning. A lot of intellectual capital goes into those program 
areas.
    We are now beginning to really get--drill down on this 
area--ferries, and trains, and buses and small boats, and I--
and there is also--there is a legislative fix.
    As I understand it, sir, we need legislation in order to 
mandate that, or the legislation that you all gave us for the 
cruise ship industry and the airlines and the other modes that 
we have out there requires a legislative vehicle, as I 
understand it.
    Mr. Souder. My concern with this--and I encourage you to do 
this. I encourage your agency to do this--is somebody has to be 
working in a non-panic mode. When people say what do you do for 
a living, I say I am a Congressman; we overreact for our 
business. That is our duty, because we are like the 
weathervanes of society. We run every 2 years, which means 
constantly we blow with that.
    But somebody has got to be saying what is comprehensive. We 
just can't have, ``Oh, we are really fortunate this guy didn't 
know how to do his bomb.'' We have to be anticipating. We have 
to have you leading.
    It is like, ``Oh, we are going to do 100 percent of cargo 
here,'' without understanding kind of risk assessment--how are 
you doing on the south and north border, how are you doing on 
the ports, how are you doing on the containers.
    Look, because as we learn in this case, they probe. They 
test. They find out even where we are at at different parts of 
the airports, that we take a--quite frankly, a retired senior 
citizen in Sarasota and do 18 million searches on her, and we 
are not doing anything on the buses. It is, like, come on.
    We really depend on you all to drive us a little bit, 
because--you are not running right now, and we kind of react 
when a thing comes, and then we put all the funds in there. But 
we need to have a balanced thing.
    It has been a long time since 9/11 and we still don't have 
these kind of core things that we know are high-risk even 
though, in fact, the Millennium bomber, which would have been 
the biggest one--if it hadn't been for an agent at the border 
on a person who came over on a ferry more or less thinking that 
the person looked nervous at the end of the day, we could have 
had an incredible catastrophe.
    Mr. Winkowski. I agree. I don't want to mislead you or the 
Chairman. I mean, with ferries and trains and buses and small 
boats, we still do our inspections. I mean, and we still run 
them through systems.
    What I am trying--what we need to do is we have got to, you 
know, through the risk management models, get that advanced 
information, make decisions, get rid of that clutter, that low-
risk group, spend little time with them and more time with the 
high-risk.
    One of the ways you do that--and we found in the--with 
advance passenger information is that you are able to make 
better decisions.
    I think also, sir, that I think we have made tremendous 
inroads since 9/11. I look back at that very unfortunate event 
and look back at the fact that we never had a National 
Targeting Center for passenger, and we never had a National 
Targeting Center for cargo.
    We were not advanced from the standpoint of PNR information 
and APIS information and all the advanced information that we 
get on the cargo side. We have made tremendous inroads, but I 
think we have been spending so much time in those areas, on 
cargo, at the expense of some of these other areas, such as 
small boats.
    I mean, we are spending a lot of intellectual capital here 
looking at issues like 100 percent scanning when, in fact, we 
have put in all these layers. I am not saying that it is 
perfect, but we really need to focus in and I get your message 
very clearly.
    Mr. Souder. Let me make it clear. I believe we have made 
tremendous progress--that we haven't been attacked. We have had 
a couple that have misfired, but it is a classic law 
enforcement--layered things--they make mistakes when they get 
layered, they are more nervous, they get tipped off, and that 
sometimes have been fortunate but most of the time we have 
stopped them, and that we just cannot flatline here.
    The danger is--and the good thing that happened here is it 
has got everybody concerned again, because we were flatlining. 
The budget can't flatline either. There are some things that 
are the clear requirements of the United States Congress to do.
    We cannot have county commissioners and State legislators 
running around trying to figure out how border security is 
going to work, how we are going to stop terrorists, that when 
we are working our budget we have to understand which things 
are clearly our responsibility and which things are shared 
responsibilities.
    We cannot flatline because the challenge is going to get 
more sophisticated, so we have to keep doing it. But we have 
made tremendous progress, and I didn't mean to imply that we 
didn't.
    Yield back.
    Mr. Cuellar. Mr. Souder, thank you again very much.
    Let me ask you just--suggestions that have been thrown out 
there that some have argued that visa issuance is no longer a 
matter of foreign policy but more--primarily it has become a 
security issue.
    Any thoughts on that? I know that is a big change, but any 
thoughts on that, Mr. Donahue?
    Mr. Donahue. I think that visa issuance is both. I think 
that there is a foreign policy aspect to it, but I think it is 
a security aspect. I think our officers fully understand that 
in the field. Their first thought in every visa adjudication, 
No. 1 thought, is how am I protecting my country.
    I mentioned that we turned down 2 million visas. We don't 
know how many of those people were either criminals or 
terrorists, but in the interview the officer got a funny 
feeling in his stomach, and--just as the officer did in 
stopping the Millennium bomber, and said, ``This story is not 
right.''
    Part of that is being culturally aware. Part of that is 
speaking in the language of the applicant. Part of that is 
living in the country, traveling around, knowing--you know 
yourself. It is hard for people to understand the border 
situation unless you have lived in the border. I was told that 
a million times when I served in Mexico.
    It is the same thing overseas. We believe that we have an 
advantage that when we are interviewing, we are--we have this 
mix of, No. 1, let's keep our country safe, but let's be sure 
that the vast majority of people who are legitimate travelers, 
people who are coming here to study in our great universities, 
people who are coming here to spend their money, people who are 
investing, that they can get in.
    Making that decision takes critical thinking, takes lots of 
training, and takes a great eye for security.
    Mr. Cuellar. Okay. Thank you.
    Mr. Parmer, let's talk about these additional Visa Security 
Units that ICE plans to stand up this year. What are we doing 
in the meanwhile while we are waiting to stand those up?
    Mr. Parmer. I am sorry, Mr. Chairman, I don't understand 
your question.
    Mr. Cuellar. In other words, we are planning to put those 
units in different places across the world. What are we doing 
in the meanwhile to address that? Because we are saying that 
there is a priority to put them in certain places.
    What are we doing in the mean time? Do we hope that we get 
lucky, or what are we doing during that time?
    Mr. Parmer. What are we doing toward establishing those 
offices?
    Mr. Cuellar. Right.
    Mr. Parmer. Well, we are selecting the personnel. We are 
going through the personnel process. We are getting the--
looking for housing at post, working with the embassy----
    Mr. Cuellar. While we are going through that process, that 
absence from that place that you want to set up the unit--
nothing--I guess nothing can be done during that time except 
work through your office.
    Mr. Donahue. Mr. Chairman, as I said, I was in Mexico last. 
I had a very close relationship with our ICE colleagues. We 
stopped people. We revoked visas of people at the advice of 
ICE. We also depend on the ICE units here in the States that 
review it. We have other--Department of Homeland Security.
    It is a layered approach, and so even in putting this out, 
we don't know where the next terrorist is going to come from. 
We have to use smart deployment of all of our skills. They 
won't be everywhere. But through layered approaches we have a 
way to cover that.
    Mr. Cuellar. For these units that we want to set up, I know 
the best thing to do is to have ICE individuals there, because 
you have got the individuals. What about using some sort of 
virtual office? Because I am sure there is some resource 
limitation.
    I know that the best thing is to have somebody there. I 
understand that argument. But in medicine, for example, in 
Texas we have used telemedicine, where you can have a doctor 
and, through the telemedicine system, you can see, you can 
hear, you can talk, you can show him the documentation, you can 
do everything.
    Have you all thought about using that technology to help 
you expand on a faster basis where you can be domestic but 
still be able to connect to certain other areas? I know the 
argument, Mr. Parmer. I know that it is better to have 
individual. I know that.
    But if doctors can do it, there is no reason why law 
enforcement individuals can't also do that. Any thoughts of 
using that to at least supplement or at least temporarily use 
those systems, the technology?
    Mr. Parmer. You knew exactly what I was going to say, so I 
won't belabor that point about the value of having people in 
country, and it is a similar concept as to why visas aren't 
issued remotely.
    But I think that topic is among those being considered by 
Assistant Secretary Morton, or some exploration of that topic 
by Assistant Secretary Morton and his counterpart at State, 
Assistant Secretary Jacobs.
    Mr. Cuellar. Okay. I would ask you to--and I was just with 
Secretary Morton last night. I think I am supposed to see him 
next week again. But I would ask you--and I will tell him, too, 
but I would ask you all to consider this.
    To have somebody there, I understand, it is the best 
person. But you know, is it better to have somebody or not have 
anybody at all? At least there is some sort of intermediate 
system on the technology. The new world that we are in, you 
know, the systems that we have--I think I would highly, highly 
encourage you all to at least explore and research this.
    You might not be there, but you might have somebody in one 
of your offices here in the United States be able to work with 
one of your officers there, one of your employees there, and at 
least do that.
    I mean, I will go back. If doctors can do it through 
telemedicine, there is no reason why law enforcement--and I 
know they are different. I understand. I got three brothers who 
are peace officers, so I understand that.
    But I would ask you at least to explore that, so I would 
ask you to please ask Secretary Morton--I think he is a very 
innovative, bright individual--that I think you all should at 
least explore this possibility.
    Mr. Parmer. Pardon me, Mr. Donahue.
    I just wanted to add that we do have a remote capability 
that we do work in collaboration with State on, and it is the 
security advisory opinion process. That does work remotely. You 
know, again, going back to the----
    Mr. Cuellar. Well, then you got the first step there.
    Mr. Parmer. That is right. And----
    Mr. Cuellar. Okay? Okay?
    Mr. Parmer. But the value of being able to interact with 
the applicant, work alongside the consular officers, interact 
with--liaise with local law enforcement, follow up with family 
members, business associates, that sort of thing--there is just 
no replacement for having the ability to do that in country.
    Mr. Cuellar. Right. Well, again, I would highly, highly 
encourage you to do that.
    You know, one of the things that we have seen--and I will 
use medicine as an example--you might have a doctor there, 
general practitioner, but then he is able to connect to certain 
specialist, and that doctor can talk to those specialists who 
are somewhere else.
    If you have certain experts in your office that might not 
be able to go to some remote part of the world, at least they 
will be able to connect and talk to--and use the expertise. 
Nowadays, with this technology, it is like if you are there. 
Use that. So again, I would strongly ask you to consider that.
    I would ask one more thing. What else can we do as Members 
of Congress, as Congress, to help you all? I will go--Mr. 
Parmer--and I know you can't go into the budget and ask, 
because I know you can't lobby us, but--well, what are the more 
generic things that we can do to help you? I will go one by 
one.
    Mr. Parmer. I am not prepared to answer more of a policy-
type question, but I do--I will reiterate our appreciation for 
the support that you do currently give us. Thank you, Mr. 
Chairman.
    Mr. Cuellar. Thank you.
    I know you are not shy.
    Mr. Winkowski. Yeah, Mr. Chairman. We already talked about 
one. I think we have got to really drill down here on the all 
modes APIS. I think it is time, and we have done some 
preliminary work, and we will certainly work with the staff on 
that.
    Mr. Cuellar. We were just talking right now, as we talked--
what was it, last week, I believe----
    Mr. Winkowski. Yes.
    Mr. Cuellar [continuing]. I think we are at that time to 
start looking at--doing that type of work, so we are going to 
set up a meeting, a hearing on this particular issue to talk 
about it, because I still go back--I am a border guy, and I 
still go back to my numbers.
    Eighty-eight percent of the goods or the people coming into 
United States are coming from land ports. If that is where the 
majority of the folks coming in, and if I was somebody with bad 
intentions, I would look at those other areas, whether they are 
buses--for example, in Laredo, Texas we get about 100 buses a 
day times, what, 40 individuals.
    Just one port, doesn't include California and the other 
places, just one port in Laredo, 100 buses, 40 individuals, and 
that gives you an idea. If you do some of that work before they 
get there, then you can work on the high-risk individuals 
instead of--everybody across the border on that.
    But that doesn't cover ferries and other----
    Mr. Winkowski. Not only do you work on the high-risk 
individuals, of course, with APIS you would set up a system 
where the--those that need I-94s--they are all printed by the 
time these individuals come off the bus, or maybe get to a 
point where they don't even need to come off the bus.
    Been down there many times, as you know, and see all these 
people going into the office, waiting for I-94s to be done. So 
I think we have got some opportunity there.
    Mr. Cuellar. Right. I want to thank you, because I want you 
all to continue being forward-thinking. I am glad that the 
Department is looking at those issues I had. So I appreciate 
that.
    Mr. Donahue, any thoughts?
    Mr. Donahue. Well, we are extremely grateful for the 
information-sharing that Congress has encouraged among the 
agencies. It has changed the way we do business.
    We are getting things like the ADIS information, the 
Arrival and Departure Information System, other systems that 
are being shared across the Government, and they help our 
officers in the field.
    The one request I would make, partially because we are 
self-funded, is that we really do encourage you and your 
Members and your staff members to visit our consular sections.
    I think a few minutes--just as you enjoyed at the National 
Targeting Center, I think a visit to some of our busy visa 
sections when you are visiting for other business in a capital 
city or a consular city is a real eye-opening experience to see 
our officers using the language, protecting our borders, on a 
daily basis.
    Mr. Cuellar. Yes, sir, and I think that is a very good 
suggestion.
    I want to say thank you to all three of you. Again, I 
apologize. sometimes our schedules are beyond our control. 
Sorry about the delay that we had there. But I really want to 
thank you all.
    I know that your men and women that you all supervise, that 
you all work with, do a great service to our country, so again, 
for the State Department, and for ICE and CBP, we really 
appreciate the good work that you have been doing.
    Personally, I feel very--I feel good as to the different 
improvements that you all have made, because I always look at--
we saw what happened, but I am interested in looking forward--
what are the lessons learned, what are we learning?--so this 
doesn't happen again.
    Also keep one thing in mind. Mr. Winkowski, we talked about 
this. We have to be careful about not just relying on the 
systems themselves. As we mentioned, there is still this sixth 
sense or this intuition that our men and women have to use, 
because you just can't look at everything that is on a computer 
screen.
    The more we can encourage this--and I know we talked about 
that for all the Department. Of course, for ICE and CBP I would 
ask you to just make sure you tell your folks, you know, to use 
that sixth sense, if I can use that--as my brothers in law 
enforcement told me that little sixth sense on that, so I 
appreciate that.
    Again, I would ask you, again, to say--you know, I want to 
say thank you very much, and I appreciate you all being here. 
At this time, I want to thank the witnesses for their 
testimony, Members for their questions.
    Again, if there is any additional questions that Members 
might want to submit, I would ask you to go ahead and submit 
that to the committee.
    Hearing no further business, the subcommittee stands 
adjourned. Thank you very much.
    [Whereupon, at 2:55 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
